APPENDIX

1a
______________________________
APPENDIX A
________________________
Kim and Barry LIPPARD, Plaintiffs,
v.
Larry HOLLEMAN and Alan Hix, Defendants.
No. COA18-873
Court of Appeals of North Carolina.
Filed: May 19, 2020
Background: Former church pianist and her husband, who were congregation members, brought
action against church pastor and music director for
defamation and ultra vires corporate activities. trial
court denied defendants’ motion to dismiss on ground
of lack of subject matter jurisdiction, but later granted
motion to dismiss ultra vires activities claim. Subsequently, defendants moved to dismiss defamation
claims for lack of subject matter jurisdiction and failure to state a claim, trial court granted motion, and
plaintiffs appealed. The Court of Appeals, 253
N.C.App. 407, 798 S.E.2d 812, vacated and remanded.
On remand, the Superior Court, Iredell County, No.
13 CVS 2701, Mark Klass, Senior Resident Judge,
granted defendants’ motion for summary judgment on
grounds including the ecclesiastical entanglement
doctrine. Plaintiffs appealed.

2a
Holdings: In a case of first impression, the Court of
Appeals, Murphy, J., held that determining truth of
allegedly defamatory statements would involve inquiry into religious matters precluded by
ecclesiastical entanglement doctrine.
Affirmed.
McGee, C.J., filed opinion concurring in part, dissenting in part, and concurring in the judgment.
__________
Appeal by Plaintiffs from order entered 17 April
2018 by Judge Mark E. Klass in Iredell County Superior Court. Heard in the Court of Appeals 14 March
2019. Iredell County, No. 13 CVS 2701
Seth B. Weinshenker, P.A., Concord, by Seth B.
Weinshenker, for plaintiffs-appellants.
Gibbs & Associates Law Firm, LLC, by Seth J.
Kraus and E. Bedford Cannon, for defendants-appellees.
MURPHY, Judge.
Kim Lippard (“Mrs. Lippard”) and Barry Lippard
(“Mr. Lippard”) (together, “Plaintiffs”) allege multiple
claims of defamation against Larry Holleman (“Holleman”)
and
Alan
Hix
(“Hix”)
(together,
“Defendants”). The First Amendment does not permit
courts to hear defamation claims when they were
made during an internal religious dispute regarding
ecclesiastical matters. We affirm the trial court’s
grant of summary judgment in favor of Defendants.

3a
BACKGROUND
Plaintiffs were members of Diamond Hill Baptist
Church (“DHBC”), where Mrs. Lippard had served as
church pianist and vocalist. Holleman was the Pastor
of the Church and Hix was Minister of Music. Holleman was DHBC’s leader and was “responsible for
leading [DHBC] to function as a New Testament
Church.” This included leading the congregation and
DHBC staff to perform their tasks and caring for the
DHBC members. Hix directed DHBC’s music organization. Its purpose was “to teach music, train persons
to lead, sing, and play music, [and] provide music in
the [DHBC] and community.” Under Hix’s direction,
the music organization “provide[d] and interpret[ed]
information regarding the work of the [DHBC] and denomination.”
On 8 August 2012, Mrs. Lippard and Hix had a
disagreement over the reassignment of a music solo.
The solo was originally assigned to Mrs. Lippard for
an upcoming Sunday morning service. Hix, however,
asked another choir member to perform the solo and
Mrs. Lippard was upset about the reassignment.
When an internal conflict between church members
arises, DHBC’s bylaws maintain that “the pastor and
the deacons will take every reasonable measure to resolve the problem in accord with Matthew 18.”
As church leader, Holleman began meeting with
Mrs. Lippard and Hix to facilitate a “reconciliation”
between them and an “improved relationship based on
biblical passages.” On 26 August 2012, after several
unsuccessful reconciliation meetings, Holleman met
with the Board of Deacons (“Deacons”) to discuss

4a
whether Mrs. Lippard should be dismissed from her
position as DHBC pianist. At the meeting, the Deacons voted to recommend Mrs. Lippard’s dismissal to
DHBC’s Church Personnel Committee (“the Personnel Committee”). Three days later, Holleman
informed Mrs. Lippard that the Deacons had voted to
recommend her dismissal.
In response to a voice message from Mr. Lippard,
Holleman arranged further counseling sessions between Mrs. Lippard and Hix. The sessions were to
continue seeking a “reconciliation” between the two
and were scheduled for late September through October 2012.
Ultimately, the Deacons announced its decision to
again recommend Mrs. Lippard’s dismissal and resubmitted its recommendation to the Personnel Committee. The Personnel Committee met and voted to
recommend to the full congregation that Mrs. Lippard
be dismissed as DHBC pianist. The decision had to be
approved by an affirmative vote of three-fourths of
DHBC members. On 13 November 2012, Holleman delivered a letter to Mrs. Lippard, setting forth the
reasons for his recommendation to dismiss her as pianist.1

Although the 13 November letter Holleman sent to Mrs. Lippard is not included in the Record, Plaintiffs assert the 13
November letter is a shortened version of a 28 November 2012
letter made available to the full DHBC congregation, which is
included in the Record. Defendants do not contest this assertion.
1

5a
On 25 November 2012, during the morning DHBC
church service, Holleman announced to his congregation that there would be a “church-wide” meeting and
a vote in three days. At that meeting, DHBC staff
would be discussed and it was part of the responsibilities of members to be present for the discussion and
to vote. He also said that a written letter explaining a
motion and absentee ballots for the motion would be
made available.
At the “church-wide” meeting on 28 November
2012, Holleman delivered a sermon on the motion to
terminate Mrs. Lippard from the pianist position. He
repeatedly stated that the recommendation for Mrs.
Lippard’s dismissal stemmed from her “unwillingness
to commit” to the DHBC’s reconciliation process. After
the meeting, Holleman left printed copies of his 28 November 2012 sermon in the foyer for members of the
congregation. He also made a letter available titled
“Concluding Comments to the Present disciplinary
Actions by The Body of Deacons and the Personnel
Committee (November 13, 2012).” It said, “I (we) have
yet to hear you acknowledge any personal responsibility for your failures.” The letter concluded that Mrs.
Lippard, “by placing conditions upon [her] obedience
to the scriptures as they regard reconciliation, ha[s]
been the obstacle to that reconciliation.”
In a sermon on 2 December 2012, Holleman advocated for the DHBC congregation to remove Mrs.
Lippard from the pianist position. Ballots were distributed stating the Deacons recommended the
dismissal of Mrs. Lippard “due to her unwillingness to
admit to any wrongdoing, or to commit unconditionally to the process of reconciliation.” The congregation

6a
voted against dismissal, and Mrs. Lippard remained
in her position. Holleman and Hix also continued in
their respective leadership positions.
Plaintiffs allege that, after the vote, Holleman and
the Deacons unsuccessfully sought to remove them as
members of DHBC, and that Defendants continued to
speak with members of the congregation about Plaintiffs. Plaintiffs contend that in Holleman’s sermons he
“continued ... to defame [Plaintiffs] by consistently
preaching against those who would not commit to reconciliation,” alluding to Plaintiffs. Plaintiffs further
contend Hix said to a DHBC member that “[Mr.] Lippard is a liar and you and other people like you are
believing him instead of the Scripture.” On 8 January
2013, Hix also emailed DHBC member Tony Brewer
(“Brewer”) about the situation, stating Plaintiffs were
“openly denying” “verifiable facts” about the reconciliation process.
Holleman also communicated with others about
Plaintiffs. When Brewer complained of the efforts to
remove Plaintiffs, Holleman sent a letter to him alleging that Mrs. Lippard “refuses to acknowledge any
wrongdoing, and that she was unwilling to commit unconditionally to the process of reconciliation.” In a 6
April 2013 email, Holleman claimed Mr. Lippard once
“blocked [Hix’s] exit from the music room and was aggressively going after [Hix], pointing his finger in
[Hix]’s face, an action [Holleman] recently learned
was illegal and could have very well been reported as
a crime.” Holleman also emailed DHBC member A.W.
Myers (“Myers”), stating Mrs. Lippard failed to
acknowledge her own role in the dispute between her
and Hix. In August 2013, Mrs. Lippard resigned her

7a
position as DHBC pianist and Plaintiffs began attending another church.
A. Unpublished Lippard
Shortly after Mrs. Lippard’s resignation, Plaintiffs filed this action against DHBC and Defendants,
alleging they were defamed by Defendants, who Plaintiffs also allege committed ultra vires corporate
activities. In their answer, Defendants moved to dismiss Plaintiffs’ complaint under N.C.G.S. § 1A-1, Rule
12(b)(1) for lack of subject matter jurisdiction. Plaintiffs voluntarily dismissed their claim against DHBC
without prejudice, leaving only their claims against
Defendants. Defendants’ Rule 12(b)(1) motion to dismiss was denied by Judge Anna Mills Wagoner on 25
May 2014. Defendants later moved to dismiss Plaintiffs’ second cause of action for ultra vires activities,
and Judge Theodore Royster granted Defendants’ motion, leaving only the claims for defamation against
Defendants.
After retaining new counsel, Plaintiffs filed a separate civil action (No. 15-CVS-606) against
Defendants and DHBC upon nearly identical claims
of defamation, ultra vires activities, and negligent supervision while the claims in the 2013 case were still
active. Defendants moved to dismiss the claims in No.
15-CVS-606 and made an oral motion to dismiss the
claims in this case as well. Judge Michael Duncan dismissed the claims in No. 15-CVS-606 while refusing
to rule on Defendants’ oral motion to dismiss the
claims in this case, finding that Judge Wagoner had
previously ruled on that issue.

8a
Defendants filed an additional motion to dismiss
Plaintiffs’ remaining defamation claims in this case
on 16 February 2016 for lack of subject matter jurisdiction under N.C.G.S. § 1A-1, Rule 12(b)(1) and
failure to state a claim upon which relief can be
granted under N.C.G.S. § 1A-1, Rule 12(b)(6). Judge
Martin B. McGee heard the motion on 21 March 2016
and dismissed Plaintiffs’ defamation claim in an order, stating “[t]he First Amendment deprives the
[c]ourt of jurisdiction to resolve this dispute involving
internal communications between church leadership
and members of the congregation relating to issues of
membership and music leadership.”
Plaintiffs appealed and we vacated and remanded
the judgment to the trial court in an unpublished
opinion. Lippard v. Holleman, No. COA16-886, 253
N.C. App. 407, 798 S.E.2d 812, 2017 WL 1629377, at
*3 (2017) (unpublished) (hereinafter Unpublished
Lippard).2 In vacating and remanding the trial court’s
dismissal of Plaintiffs’ claims under Rule 12(b)(1), we
held that Judge McGee’s grant of Defendants’ motion
to dismiss impermissibly overruled Judge Wagoner’s
denial of Defendants’ motion to dismiss in the same
action. We reasoned subject matter jurisdiction is not
an exception to the general rule that “one Superior
Court judge may not correct another’s errors of law;
and ... ordinarily one judge may not modify, overrule,
or change the judgment of another Superior Court

Our recognition of the law of this case does not convert the holding in our previously unpublished opinion into binding
precedent. See Rule 30(e).
2

9a
judge previously made in the same action.” Unpublished Lippard, 2017 WL 1629377, at *3 (quoting
Calloway v. Ford Motor Co., 281 N.C. 496, 501, 189
S.E.2d 484, 488 (1972)) (internal quotations omitted).
We further held that none of the recognized exceptions to the Calloway rule applied. See id. at *5.
Although we discussed jurisdiction and the ecclesiastical entanglement doctrine under the First
Amendment in dicta, our opinion did not reach the
merits of the issue currently before us.
B. Decision on Remand
On remand to the trial court, Defendants filed a
motion for summary judgment under N.C.G.S. § 1A-1,
Rule 56, stating there was no genuine issue as to any
material fact and they were entitled to judgment as a
matter of law. Judge Mark E. Klass granted Defendants’ motion on the following grounds: (1) the First
Amendment barred Plaintiffs’ claims because “inquiry
into the falsity of the claimed ‘defamatory statements’
would cross the ecclesiastical limitations prohibited
by the First Amendment”; (2) “Defendants are entitled
to judgment as a matter of law in their individual capacities” because Plaintiffs “failed to raise any
forecast of evidence that Defendants made any of their
statements in their individual capacities”; (3) Defendants are entitled to judgment as a matter of law in
their representative capacities because Plaintiffs voluntarily dismissed Defendants’ principal, DHBC; (4)
none of Defendants’ statements were defamatory per
se as a matter of law; and (5) Plaintiffs failed to “provide any evidentiary forecast that they suffered

10a
special damages because of any of Defendants’ allegedly defamatory per quod statements.” Plaintiffs
appealed.
ANALYSIS
Summary judgment is proper “if the pleadings,
depositions, answers to interrogatories, and admissions on file, together with the affidavits, if any, show
that there is no genuine issue as to any material fact
and that any party is entitled to a judgment as a matter of law.” N.C.G.S. § 1A-1, Rule 56(c) (2017). “We
review a trial court’s order granting or denying summary judgment de novo.” Craig ex rel. Craig v. New
Hanover County Bd. of Educ., 363 N.C. 334, 337, 678
S.E.2d 351, 353 (2009) (internal citations omitted).
“Subject matter jurisdiction is conferred upon the
courts by either the North Carolina Constitution or by
statute.” Harris v. Pembaur, 84 N.C. App. 666, 667,
353 S.E.2d 673, 675 (1987). “The question of subject
matter jurisdiction may be raised at any time ....”
Lemmerman v. A.T. Williams Oil Co., 318 N.C. 577,
580, 350 S.E.2d 83, 85 (1986). “It is a universal rule of
law that parties cannot, by consent, give a court, as
such, jurisdiction over subject matter of which it
would otherwise not have jurisdiction. Jurisdiction in
this sense cannot be obtained by consent of the parties, waiver, or estoppel.” Pulley v. Pulley, 255 N.C.
423, 429, 121 S.E.2d 876, 880 (1961) (quoting Hart v.
Thomasville Motors, Inc., 244 N.C. 84, 88, 92 S.E.2d
673, 676 (1956)).

11a
A. First Amendment Ecclesiastical
Entanglement Doctrine
Plaintiffs argue the trial court erred in granting
summary judgment to Defendants for lack of subject
matter jurisdiction on First Amendment grounds. According to Plaintiffs, their defamation claims do not
require the trial court to impermissibly weigh church
doctrine because “it is the conduct of [Defendants] in
carrying on reconciliation proceedings and defaming
[Plaintiffs] in the course of such proceedings, and not
the reconciliation proceeding itself, that is at issue.” In
contrast, Defendants argue the trial court correctly
held that the defamation claim is barred under the ecclesiastical entanglement doctrine because, to
determine whether the alleged defamatory statements were false, courts would “becom[e] entangled in
the statements made during the course of [DHBC]’s
religious disciplinary and administrative activities between the Lippards, Holleman, Hix, and members and
choir members of DHBC.” We hold that determining
the truth or falsity of Defendants’ alleged defamatory
statements—where the content of those statements
concerns whether Plaintiffs complied with DHBC’s
practices—would require us to interpret or weigh ecclesiastical matters, an inquiry not permitted by the
First Amendment.
“The Establishment Clause and the Free Exercise
Clause of the First Amendment prohibit any ‘law respecting an establishment of religion, or prohibiting
the free exercise thereof.’ ” Doe v. Diocese of Raleigh,
242 N.C. App. 42, 47, 776 S.E.2d 29, 34 (2015) (quoting U.S. Const. amend. I.). “As applied to the states
through the Fourteenth Amendment, the First

12a
Amendment also restricts action by state governments and the servants, agents and agencies, of state
governments.” Hill v. Cox, 108 N.C. App. 454, 461, 424
S.E.2d 201, 206 (1993) (citation and quotation marks
omitted). There is “a spirit of freedom for religious organizations, an independence from secular control or
manipulation, in short, power to decide for themselves, free from state interference, matters of church
government as well as those of faith and doctrine.”
Kedroff v. St. Nicholas Cathedral of Russian Orthodox
Church in N. Am., 344 U.S. 94, 116, 73 S.Ct. 143, 97
L. Ed. 120 (1952) (emphasis added). “For the First
Amendment rests upon the premise that both religion
and government can best work to achieve their lofty
aims if each is left free from the other within its respective sphere.” McCollum v. Bd. of Ed., 333 U.S.
203, 212, 68 S.Ct. 461, 92 L. Ed. 649 (1948). We “are
prohibited ‘from becoming entangled in ecclesiastical
matters’ and have no jurisdiction over disputes which
require an examination of religious doctrine and practice in order to resolve the matters at issue.” Doe, 242
N.C. App. at 47, 776 S.E.2d at 34-35 (quoting Johnson
v. Antioch United Holy Church, Inc., 214 N.C. App.
507, 510, 714 S.E.2d 806, 810 (2011)).
An ecclesiastical matter is one which
concerns doctrine, creed, or form of
worship of the church, or the adoption
and enforcement within a religious
association of needful laws and
regulations for the government of
membership, and the power of
excluding from such associations those
deemed unworthy of membership by

13a
the legally constituted authorities of
the church; and all such matters are
within the province of church courts
and their decision will be respected by
civil tribunals.
Doe, 242 N.C. App. at 47, 776 S.E.2d at 35 (quoting E.
Conference of Original Free Will Baptists of N.C. v. Piner, 267 N.C. 74, 77, 147 S.E.2d 581, 583 (1966),
overruled in part on other grounds by Atkins v.
Walker, 284 N.C. 306, 200 S.E.2d 641 (1973)). Hearing
disputes over these matters is prohibited because of
two concerns: “(1) by hearing religious disputes, a civil
court could influence associational conduct, thereby
chilling the free exercise of religious beliefs; and (2) by
entering into a religious controversy and putting the
enforcement power of the state behind a particular religious faction, a civil court risks ‘establishing’ a
religion.” Id. at 48, 776 S.E.2d at 35 (internal quotation marks omitted) (quoting Emory v. Jackson
Chapel First Missionary Baptist Church, 165 N.C.
App. 489, 492, 598 S.E.2d 667, 670 (2004)).
These dangers demand dismissal “when ‘no neutral principles of law exist to resolve claims’ so that [a]
court can ‘avoid becoming impermissibly entangled in
the dispute[.]’ ” Id. at 58, 776 S.E.2d at 41 (alterations
omitted) (quoting Harris v. Matthews, 361 N.C. 265,
273, 643 S.E.2d 566, 571 (2007)). This necessitates an
answer to a “dispositive question[:] whether resolution of the legal claim requires the court to interpret
or weigh church doctrine.” Smith v. Privette, 128 N.C.
App. 490, 494, 495 S.E.2d 395, 398 (1998) (citing Serbian E. Orthodox Diocese v. Milivojevich, 426 U.S.
696, 710, 96 S.Ct. 2372, 2381, 49 L. Ed. 2d 151, 163

14a
(1976)). Only when an “issue to be determined in connection with [a party’s] claim is a purely secular one,”
then “[n]eutral principles of law govern th[e] inquiry
and ... subject matter jurisdiction exists in the trial
court over th[e] claim.” Doe, 242 N.C. App. at 55, 776
S.E.2d at 39 (emphasis added); see also Smith v. Raleigh Dist. of N.C. Conference of United Methodist
Church, 63 F. Supp. 2d 694, 713 (E.D.N.C. 1999)
(holding that “[a] court must determine whether the
dispute is an ecclesiastical one about discipline, faith,
internal organization, or ecclesiastical rule, custom or
law, or whether it is a case in which it should hold religious organizations liable in civil courts for purely
secular disputes between third parties and a particular defendant, albeit a religiously affiliated
organization”) (internal marks and citations omitted).
In Harris, our Supreme Court reaffirmed the importance of avoiding entanglement in matters such as
ecclesiastical governance, doctrine, practice, questions, roles of officials, and internal decision-making.
Harris v. Matthews, 361 N.C. 265, 271-73, 643 S.E.2d
566, 570-572 (referencing Serbian E. Orthodox Diocese v. Milivojevich, 426 U.S. 696, 710, 96 S.Ct. 2372,
2381, 49 L. Ed. 2d 151, 163 (1976); Md. & Va. Eldership of Churches of God v. Church of God at
Sharpsburg, Inc., 396 U.S. 367, 368, 90 S.Ct. 499, 500,
24 L. Ed. 2d 582, 583 (1970) (per curiam); Presbyterian
Church in U.S. v. Mary Elizabeth Blue Hull Mem’l
Presbyterian Church, 393 U.S. 440, 449, 89 S.Ct. 601,
606, 21 L. Ed. 2d 658, 665 (1969)). The Supreme Court
concluded that
[w]hen a party brings a proper
complaint, where civil, contract, or

15a
property rights are involved, the courts
will inquire as to whether the church
tribunal acted within the scope of its
authority and observed its own organic
forms and rules. But when a party
challenges church actions involving
religious doctrine and practice, court
intervention
is
constitutionally
forbidden.
Harris, 361 N.C. at 274–75, 643 S.E.2d at 572 (internal marks and citations omitted) (emphasis added).
Although our courts have not previously decided
whether the ecclesiastical entanglement doctrine applies to defamation claims, “the principles set out [in
Harris] concerning the limitations placed by the First
Amendment on the subject matter jurisdiction of civil
courts to adjudicate claims against religious entities
are equally applicable here.” Doe, 242 N.C. App. at 49,
776 S.E.2d at 36. Again, “[t]he dispositive question is
whether resolution of the legal claim[s] requires the
court to interpret or weigh church doctrine. If not, the
First Amendment is not implicated and neutral principles of law are properly applied to adjudicate the
claim.” Id. at 49, 776 S.E.2d at 36 (alteration in original) (quoting Smith v. Privette, 128 N.C. App. 490,
494, 495 S.E.2d 395, 398, appeal dismissed, 348 N.C.
284, 501 S.E.2d 913 (1998)). Defamation claims present a unique challenge under this doctrine because,
in North Carolina, as in other states, these claims include as an essential element the falsity of the
defendant’s alleged statements. See Parker v. Edwards, 222 N.C. 75, 78, 21 S.E.2d 876, 878-89 (1942)

16a
(“It may be stated as a general rule ... that a defamatory statement, to be actionable, must be false.”).
Harris maintains that our courts must avoid entanglement in ecclesiastical matters, doctrine, and
practice. See Harris, 361 N.C. at 269-75, 643 S.E.2d at
569-72. Not only do we dismiss claims that involve examining or weighing doctrine, but we also dismiss
claims that involve examining or weighing ecclesiastical matters. Doe, 242 N.C. App. at 46-58, 776 S.E.2d
at 34-41; see Harris, 361 N.C. at 270, 643 S.E.2d at
569 (“The constitutional prohibition against court entanglement in ecclesiastical matters is necessary to
protect First Amendment rights identified by the ‘Establishment Clause’ and the ‘Free Exercise Clause.’ ”).
As discussed above, ecclesiastical matters go beyond
following church scripture or texts, and our precedent
has shown the breadth of ecclesiastical matters and
church doctrine.
In Doe, we distinguished two tort claims that implicated the ecclesiastical entanglement doctrine. On
the one hand, we allowed an individual’s negligent supervision claim against a diocese and a bishop that
stemmed from an alleged sexual assault, reasoning
that neutral principles of law permitted adjudicating
an individual’s claim that the diocese and bishop
knew or should have known of the danger posed by the
priest to an individual because of his sexual attraction
to minors. Doe, 242 N.C. App. at 51-55, 776 S.E.2d at
36-39. We concluded there was no need to determine
issues such as whether the priest should have been
incardinated, allowed to remain a priest, or whether
the priest’s relationship with the diocese should have

17a
been severed. Id. On the other hand, we could not adjudicate the same individual’s negligence claim based
on defendants’ failure to compel the priest to undergo
sexually transmitted disease (STD) testing. Id. at 56,
776 S.E.2d at 40. We reasoned that the liability theory
was premised on tenets of the Catholic church,
namely, the degree of control existing in the relationship between the bishop and priest. Id.
Our Supreme Court held in Harris that a trial
court could not judge “the proper role of ... church officials and whether ... expenditure[s were] proper in
light of ... religious doctrine and practice.” Harris, 361
N.C. at 273, 643 S.E.2d at 571. Therefore, “[b]ecause
a church’s religious doctrine and practice affect its understanding of each of [the concepts at issue], [this is
like] asking a court to determine whether a particular
church’s grounds for membership are spiritually or
doctrinally correct or whether a church’s charitable
pursuits accord with the congregation’s beliefs,” which
are barred. Id. Religious doctrine permeates a
church’s understandings of numerous aspects of its religious practice. See id.
Various other North Carolina cases inform what
is included in the ecclesiastical entanglement doctrine. We held in Emory that we could not look into a
church’s internal customs or practices. Emory v. Jackson Chapel First Missionary Baptist Church, 165 N.C.
App. 489, 493, 598 S.E.2d 667, 670-71 (2004) (barring
an examination of informal meeting notice requirements). Yet, in Azige, we reaffirmed that courts may
resolve church disputes through neutral principles of
property law without necessarily becoming entangled

18a
in internal church governance concerning ecclesiastical matters. Azige v. Holy Trinity Ethiopian Orthodox
Tewahdo Church, 249 N.C. App. 236, 239, 790 S.E.2d
570, 572-73 (2016). Likewise, in Smith, we did not
have to interpret or weigh doctrine in a negligent retention and supervision claim because the claims
merely raised the issue of whether church officials
knew or had reason to know of a cleric’s propensity to
engage in sexual misconduct. Smith, 128 N.C. App. at
495, 495 S.E.2d at 398.
United States Supreme Court decisions also support our longstanding aversion for entanglement in
ecclesiastical matters. Religious disputes can include
“matters of discipline, faith, internal organization, or
ecclesiastical rule, custom, or law.” See Serbian E. Orthodox Diocese v. Milivojevich, 426 U.S. 696, 713, 96
S.Ct. 2372, 49 L. Ed. 2d 151 (1976). Indeed, more than
150 years ago, the United States Supreme Court held
that religious disputes could cover “theological controversy, church discipline, ecclesiastical government, or
the conformity of the members of the church to the
standard of morals required of them ....” Watson v.
Jones, 80 U.S. (13 Wall.) 679, 733, 20 L. Ed. 666
(1871). “[Watson] radiates ... a spirit of freedom for religious organizations, an independence from secular
control or manipulation, in short, power to decide for
themselves, free from state interference, matters of
church government as well as those of faith and doctrine.” Kedroff, 344 U.S. at 116, 73 S.Ct. 143, 97 L. Ed.
120 (emphasis added).
Under our precedent and United States Supreme
Court precedent, religious doctrine and ecclesiastical

19a
matters are expansive. Statements made during religious disputes can include a religion’s internal
customs, practices, beliefs, faith, theology, morality,
membership, organization, governance, rules, law,
discipline, and degree of control between members.
The nature of speech, and alleged defamatory statements in particular, more easily touch upon these
subjects than negligence or property claims. To illustrate, a corporation’s communications are riddled
with corporate issues and business matters, just as a
religion’s internal communications are riddled with
religious issues and ecclesiastical matters. It is then
unlikely that a church’s internal communications will
be “purely secular.” See Doe, 242 N.C. App. at 55, 776
S.E.2d at 39 (holding that we have subject matter jurisdiction over an issue when a “claim is a purely
secular one” because “[n]eutral principles of law [can]
govern th[e] inquiry”).
For defamation claims, we must consider whether
a statement is true or false without examining or inquiring into ecclesiastical matters or church doctrine.
See Doe, 242 N.C. App. at 48, 776 S.E.2d at 35. Those
matters permeate much of a religion’s internal communications, and so it will be a rare occurrence when
a religion’s internal statements are purely secular. We
must remain cautious of deciding the truth or falsity
of a religion’s internal communications because doing
so risks chilling the religion’s “associational conduct”
or putting our pen’s power “behind a particular religious faction.” See id. at 48, 776 S.E.2d at 35.
Finally, we cannot favor religions with scripture
and disfavor religions without scripture. Religions

20a
without authoritative scripture or internal documentation would be more susceptible to defamation claims
than those without. We cannot disadvantage religions
that lack such texts. Nor can we decide if a religion
has sufficiently deep ecclesiastical points of faith and
practice compared to others. The First Amendment
serves to prevent exactly this sort of picking of winners and losers in ecclesiastical matters.
B. The Statements
Plaintiffs argue several communications by Defendants were defamatory. For simplicity, we divide
analysis of these communications into discrete sets of
statements. We hold that determining the falsity of
the statements—an essential element of a defamation
claim under North Carolina law—would require our
courts to examine or inquire into ecclesiastical matters or church doctrine. This is not permitted by the
First Amendment or North Carolina precedent. We
analyze these communications in turn.
1. 13 November 2012 Letter
The first statement Plaintiffs challenge is contained in the 13 November letter addressed from
Holleman to Mrs. Lippard and later sent to DHBC’s
congregation in an expanded form. Plaintiffs primarily challenge the following statement from the letter:
“I (we) have yet to hear you [Mrs. Lippard]
acknowledge any personal responsibility for your failures.” Plaintiffs claim that the statement is false “in
that [Mrs.] Lippard ha[d] acknowledged her share of
responsibility in the dispute with Hix.”

21a
Further context from the 13 November letter
shows the ecclesiastical context of the challenged
statement. In the 13 November letter, Holleman
stated the Deacons’s recommendation to dismiss Mrs.
Lippard came from the Deacons’s belief that “[Mrs.
Lippard,] by placing conditions upon [her] obedience
to the scriptures as they regard reconciliation, ha[s]
been the obstacle to that reconciliation.” Holleman
stated that, during a reconciliation meeting, he had
posed six questions drawn from Ephesians 4 to Mrs.
Lippard, with three more direct questions asking her
to admit failures in those areas. He continued, saying
“it’s true you answered ‘yes’ but you followed that answer three times with the condition of your demand
for satisfactory answers from [Hix.] What was evident
then was that you had missed the essence of the Biblical text ....” Holleman went on to identify four
“personal failures” of Mrs. Lippard “that are obviously
and Biblically demonstrated as failures or sinful”: (1)
her immediate response to the song reassignment; (2)
that she “failed in [her] continued resistance to the
disciplinary actions of the church,” specifically noting
that “Hebrews 12:11 exhorts [DHBC members] to be
‘exercised’ or ‘trained’ by [the reconciliation process]”;
(3) Mrs. Lippard’s alleged “slanderous comments
about a fellow believer”; and (4) her “implied accusation that [Hix] had intentionally concealed the music
for his solo ....”
Plaintiffs ask us to determine the truth or falsity
of Holleman’s claim that he and the Deacons had not
heard Mrs. Lippard “acknowledge any personal responsibility for [her] failures.” What is apparent from
the 13 November letter is that the acknowledgment of

22a
personal responsibility Holleman refers to is acknowledgment in the context of reconciliation between
persons under biblical doctrine as DHBC understands
it. Courts cannot undertake such an inquiry.
To determine whether Mrs. Lippard’s conduct
constituted an “acknowledge[ment] of personal responsibility” under these conditions would require
courts to interpret religious doctrine. Here, the statement at issue is whether Mrs. Lippard acknowledged
personal responsibility for her failures. To determine
the truth or falsity of that statement, the trial court
would have to determine (1) what Mrs. Lippard’s “failures” were, in biblical context, and (2) whether Mrs.
Lippard’s conditional response to the questions asking
her to admit failures based on the text of Ephesians 4
was sufficient under DHBC doctrine. We hold the ecclesiastical entanglement doctrine under the First
Amendment prohibits this inquiry.
2. 28 November 2012 Sermon
Plaintiffs next contend statements Holleman
made in a 28 November 2012 sermon delivered to the
DHBC congregation were defamatory. Plaintiffs challenge Holleman’s statement that “[Mrs. Lippard] had
yet to acknowledge any wrongdoing and that this refusal was the basis for the Deacon’s [sic]
recommendation [to dismiss her as staff church pianist].” They further challenge Holleman preaching
that the Deacons’s decision was based on Mrs. Lippard’s “unwillingness to commit” to DHBC’s
reconciliation process; that Mrs. Lippard’s refusal to
accept responsibility “for any possible error was as

23a
strong, if not stronger than ever[ ]”; and that Mrs. Lippard “never conceded to any wrongdoing.” Plaintiffs
also challenge Holleman’s claims that Mrs. Lippard
accused Hix of lying and intentionally hiding sheet
music and making slanderous comments about a fellow choir member.
The content of the 28 November sermon restates
and expands on the 13 November letter and our analysis demands the same result. The record shows that
Holleman delivered the challenged statements during
a sermon explaining the Deacons and Personnel Committee’s decision to recommend Mrs. Lippard’s
termination as church pianist and advocating for the
congregation to approve that termination. Specifically, Holleman describes the sermon and gathering
as “a necessary, though infrequent, part of New Testament Church life and ministry,” and the attempted
“reconciliation process” and recommendation for termination as an “application of church discipline” and
as “follow[ing] the New Testament pattern for church
discipline.”
At the outset of the 28 November sermon, Holleman taught that the disciplinary process is based on
Matthew 18:15-17. Further, as initially stated in the
13 November letter, Holleman’s comments throughout the 28 November sermon made clear that his
appeal for commitment to the reconciliation process
and acceptance of personal responsibility from Mrs.
Lippard stems from following Ephesians 4:3. Plaintiffs contend Mrs. Lippard “was always willing to
commit to the reconciliation process, having attended
all the reconciliation meetings,” and that she had
acknowledged personal responsibility for her failures

24a
because she “had in fact apologized numerous times
for any perceived or actual missteps on her behalf.”
These assertions, however, only illustrate that what
is at issue here is not merely a matter of fact, but what
constitutes “willingness to commit” to DHBC’s reconciliation process and “acceptance of personal
responsibility” in accordance with its doctrine.
To evaluate the truth or falsity of these statements, we would need to inquire into religious
doctrine and practice. In particular, we would have to
decide whether, as Plaintiffs contend, Mrs. Lippard’s
mere attendance at reconciliation meetings constituted “willingness to participate” in those meetings,
and whether her asserted apologies to Hix sufficed for
“acceptance of personal responsibility” in the context
of DHBC’s reconciliation process. Resolving these
questions would involve our courts in determining
such essential points of doctrine as what “reconciliation,” “wrongdoing,” and “acceptance of personal
responsibility” mean, which would necessarily involve
interpretation of Matthew 18 and Ephesians 4. Courts
cannot make such determinations without running
afoul of the First Amendment.
3. Ballot and Absentee Ballot
Plaintiffs next contend the language of the Ballot
and Absentee Ballot (“the ballots”) disseminated to
the congregation was defamatory. The specific language Plaintiffs challenge, which was identical on the
ballots, stated:
The Deacons & Personnel Committee
recommend that [Mrs.] Lippard be
immediately dismissed from her duties

25a
as church pianist, due to her
unwillingness to admit to any
wrongdoing,
or
to
commit
unconditionally to the process of
reconciliation.
Then, “based upon the following three questions,” the
ballots asked congregants to “render a decision”:
[1]. Have [Mrs. Lippard]’s actions been clearly
demonstrated to her and to you as wrong according to the Scriptures?
[2]. Have the efforts of the Deacons, Personnel
Committee and Pastor to restore her into the fellowship of the Body of Christ been sufficiently
exercised with careful deliberation, patience, and
graciousness, and according to the Scriptures?
[3]. Has [Mrs. Lippard] responded positively as instructed by the Scriptures?
Plaintiffs’ defamation claim based on the language of
the ballots, which is similar to statements made by
Holleman in the 13 November letter and 28 November
sermon, is barred by the ecclesiastical entanglement
doctrine of the First Amendment. To determine the
truth or falsity of the claim that Mrs. Lippard was
“unwilling[ ] to admit to any wrongdoing, or to commit
unconditionally to the process of reconciliation,” we
would have to inquire into whether the actions Mrs.
Lippard took throughout the reconciliation process
comported with DHBC’s understanding of the requirements of scripture. The ecclesiastical entanglement
doctrine prohibits this inquiry.

26a
4. Communications by Hix about Mr. Lippard
Plaintiffs next argue two statements by Hix were
defamatory. They contend oral communications made
by Hix to an unidentified congregant on 23 December
2012 were defamatory. They also contend an email
sent to Brewer, a DHBC choir member, on 8 January
2013 contained a defamatory statement.
Plaintiffs allege that on 23 December 2012, Hix
said “[Mr.] Lippard is a liar and you and other people
like you are believing him instead of Scripture.”3
Without conceding the statement was made, Defendants contend the statement “was made in the context
of Hix’s interpretation of and Mr. Lippard’s compliance with scripture.” Therefore, Defendants argue,
“[a]n inquiry into the falsity of the statement would
require a comparison of Mr. Lippard’s conduct with
Scripture, which also prohibits lying.” We presume
“people like [Brewer]” refers to other DHBC members
who support Plaintiffs. To decide whether Mr. Lippard lied and if people like Brewer believed Mr.
Lippard instead of DHBC’s interpretation of scripture, we would need to inquire into DHBC’s definition
of lying, when to believe scripture, and how scripture
determines whom to believe. This is an issue over
DHBC’s internal customs, practices, morality, and degree of control between members. It cannot be said
that this statement is purely secular. Analyzing the

We cannot separate the 23 December 2012 statement into two
parts and must read it as a whole because it is a complete sentence without a comma that would indicate a compound sentence
of two thoughts.
3

27a
truth or falsity of this statement would require us to
assess whether the alleged words or deeds comport
with or contravene the teachings of scripture regarding lying and DHBC’s interpretation of it, an inquiry
prohibited by the First Amendment.
Plaintiffs also contend the following statement
from an 8 January 2013 email to Brewer is defamatory: “Note that there are verifiable facts and Biblical
scriptures which [Plaintiffs] are openly denying and
defying.” Defendants again argue that “[a]n inquiry
into the falsity of the statement would require a comparison of [Plaintiffs’] conduct with Scripture and
whether they were openly denying and defying the
Scripture.” As we discussed above regarding the 13
November 2012 letter, Plaintiffs ask us to determine
the truth or falsity of Hix’s claim that Plaintiffs were
“openly denying and defying” “verifiable facts and
Biblical scriptures.”
This statement arose when Brewer was concerned
that “taking anyone off the [Special Music] schedule”
was an inappropriate “form of discipline in a church
setting.” Hix replied, in part, that
[Brewer] might want to look closely and
note that while [Mrs. Lippard] and [Mr.
Lippard] were removed from the
Special Music schedule, that I also
removed myself from that rotation.
Note also that there are verifiable facts
and Biblical scriptures which they are
openly denying and defying. Those facts
and scriptures still stand. The church
vote allowed [Mrs. Lippard] to keep her

28a
position as pianist, but it did not
answer the biblical appeal for
reconciliation. That
appeal was
extended by 17 out of 18 of our senior
church leaders. Until [Mr. Lippard] and
[Mrs. Lippard] are prepared to respond
to the appeal which was, has been, and
continues to be extended in biblical
love, it would not be appropriate to
restore them to a position of leading
worship within the church.
For many, music is worship as it is a celebration of
faith and often a time of prayer. Confirming the veracity of Hix’s claim would require us to inquire into and
examine DHBC’s internal discipline process, biblical
appeals for reconciliation, and Hix’s ability to direct
and control the members of DHBC’s music organization. Hix’s assessment of whether Plaintiffs are
“openly defying” “verifiable facts and Biblical scriptures” directly informed his decision of whether “it
would ... be appropriate to restore them to a position
of leading worship within [DHBC].” Further, an inquiry into the falsity of whether Plaintiffs were
“openly denying and defying” “verifiable facts and
Biblical scriptures” would also, again, require us to examine DHBC’s customs and practices relating to the
biblically-based reconciliation process. The ecclesiastical entanglement doctrine under the First
Amendment prohibits this inquiry as well.

29a
5. Communications by Holleman about Plaintiffs to his Congregation
Plaintiffs next contend statements made by Holleman to various church members regarding Plaintiffs
were defamatory. Specifically, Plaintiffs cite a 16 January 2013 letter from Holleman to Brewer, a 6 April
2013 email from Holleman to Brewer, and a 25 April
2013 email to Myers.
a. 16 January 2013 Letter
Plaintiffs allege that a litany of excerpts from the
16 January letter were defamatory. Among others,
Plaintiffs claim the following statements made by
Holleman were defamatory: (1) “I was not exaggerating when I said to the church that [Plaintiffs] have
been confronted with appeals for reconciliation 26
times since 2010[ ]”; (2) “Obviously, [Mrs. Lippard] is
not required to do these things [ (i.e., voluntary service
to the church) ] as a part of her job description but if
there was an eagerness to serve as a staff member and
a joyful participant in the ministry of [DHBC], it
seems that she might find a place of service[ ]”; (3) “I
can’t imagine why [Mrs. Lippard] would have been resistant to the idea [of voluntary service] to this day,
but that resistance certainly doesn’t communicate a
spirit of willingness and cooperation”; (4) “[Mrs. Lippard is] the present obstacle to reconciliation between
her and [Hix]”; and (5) “No doubt there are more strategies against the church leadership playing out
tonight.”
Analyzing the falsity of excerpts (1)-(4) would require us to interpret or weigh DHBC’s interpretation
of scripture and doctrine. For example, in determining

30a
whether it is true that “[Plaintiffs] have been confronted with appeals for reconciliation 26 times,” we
would have to determine what constitutes an appeal
for reconciliation within DHBC. Whether Mrs. Lippard was a “joyful participant in the ministry of the
church” and had “a spirit of willingness and cooperation” ultimately turn on the meaning of those terms
within DHBC membership and doctrine. Finally, determining the falsity of Holleman’s identification of
Mrs. Lippard as “the present obstacle to reconciliation
between her and [Hix]” would again require us to interpret the reconciliation process and the
responsibilities of participants according to scripture
as interpreted by DHBC. Each of these examinations
would cross the ecclesiastical boundary line under the
First Amendment.
The fifth excerpt that “there are more strategies
against the church leadership playing out tonight”
does not directly invoke scripture, but it does involve
other ecclesiastical matters.4 The excerpted statement
arose in the midst of Holleman explaining, to a member of his congregation, his thoughts on the ongoing
dispute, controversy, conversations, confrontations,
and involvement of fellow DHBC members:
I am in heartfelt agreement with you
here [that the “back-and-forth” must
stop]. Since the vote, the only action
taken by the church leadership has
been
to
delay
[the
Lippards’]
We note scriptural interpretations of this phrase are possible,
but Defendants do not make any such argument on appeal.
4

31a
reinstatement into the solo rotation.
I’ve given our reasons above. While I
can’t speak for every member, as far as
I’m aware, every new conversation or
controversy has been initiated by [the
Lippards], or by those who have been
advocating for their position. You
yourself have attempted to engage me
in conversation at the church. You have
asked to speak with James Orbison.
And now you’ve written this letter and
had it delivered to me, Bryan Sherrill,
and Bill Wooten. [Mr. Lippard] has
confronted [Hix] multiple times, and
this very day, I’ve met with Billy Lynch
for breakfast, whom [Mr. Lippard] had
confronted at Church with a copy of
Alan’s directives to [Mrs. Lippard]. I’ve
learned that [Mr. Lippard] has emailed [Hix] requesting an explanation
for why he and [Mrs. Lippard] have not
been returned to the solo rotation. And
Bryan Sherrill indicates that [Mr.
Lippard] called him today attempting
to “catch” me in some mistake. These
are just a few. No doubt there are more
strategies against the church leadership
playing out tonight. The only time I or
the church leadership have engaged in
further conversation has been when we
have been compelled to answer publicly
some charge of wrong doing. You claim
that you want the back-and-forth to
stop yet here I am, a month after the

32a
church vote, writing out an answer to
your uninformed accusations of our
mishandling of the past issues, while
[Hix] and Bryan are fielding additional
complaints and accusations from [Mr.
Lippard]. It would seem that in large
part the back-and-forth ceasing is up to
you and [Mr. Lippard]. For my part, you
are reading what is at least near to
being my last word on the matter. As to
your accusation that “Someone, mainly
[Hix], wants [Mrs. Lippard] off the
piano.” Short of making a motion for
[Mrs. Lippard’s] dismissal from the
fellowship of the church, what
disciplinary action would you have
suggested? I think the Deacons brought
the best recommendation they could
bring that would communicate to [the
Lippards] the seriousness of an
irreconcilable spirt while also providing
grace and room for their appropriate
response. I doubt that they would have
been any less enraged by a suspension,
given the fact that [Mr. Lippard]
rejected my offer that he and [Mrs.
Lippard] might, like [Hix], take a leave
of absence until the matter could be
resolved. Your accusation that “mainly”
[Hix] wanted [Mrs. Lippard] removed
from the piano, says more about you
[sic] personal opinion of [Hix] than it
does about the reality of the issue. I’m
sure that [Hix’s] attempts at trying to

33a
find a way to work with [Mrs. Lippard]
have been a source of frustration for
him over the years, but never has he
indicated in the slightest that her
removal was the solution. [Hix]
recognized early on that the roots of
their contentious relationship were
primarily in [Mrs. Lippard’s] personal
dislike of him. His willingness to
participate in the series of meetings I
had with them was evidence of his
desire to address those roots and to
make whatever adjustments were
needed to better their relationship.
Having presided over those meetings, I
am convinced that he [sic] effort was
sincere. To summarize, nothing in
[Hix’s] behavior over the past several
months would support your claim that
his (or our) aim has been [Mrs.
Lippard’s] removal as church pianist.
This quote itself is excerpted from a 13-page pastoral
letter. The letter is a formal “Pastoral Response” to a
complaint filed by a member of the church. The letter
and the complaint “regard[ ] [Mrs.] Lippard” and her
“recent disciplinary action.” The letter concludes that
“God Himself will be the judge of this and while I hope
that men will know my heart, I cannot ultimately be
persuaded of my rightness or wrongness by their Biblically unsubstantiated opinions alone.”
Plainly, this controversy and ongoing dispute with
the Plaintiffs is a matter of DHBC’s internal membership, organization, governance, discipline, and degree

34a
of control between members. We cannot decide the
rightness or wrongness of this statement by a pastor
communicating with his flock.
b. 6 April 2013 Email
Plaintiffs also contend Holleman defamed them in
a 6 April email to Brewer. In the email, Holleman
stated:
There were several there the
Wednesday night that [Mr. Lippard],
with [Mrs. Lippard] behind him,
blocked [Hix’s] exit from the music
room and was aggressively going after
[Hix], pointing his finger in [Hix’s] face,
an action I recently learned was illegal
and could have very well been reported
as a crime.
This excerpted statement does not directly involve
scripture, but it does involve DHBC’s customs, doctrine, and practice regarding membership and
member conduct. This accusatory excerpt was made
in the midst of an extensive multi-page email chain
that contains several references to scripture and discusses DHBC and Holleman’s handling of the
dispute:5
[Header of the 6 April 2013 9:07 AM
email from Brewer to Holleman.]
Alterations to the email chain include adjusting the names of
the parties for consistency, removing extraneous spacing and parentheses, adding paragraph breaks, and correcting some
grammatical and spelling errors.
5

35a
Hi [Holleman,]
I guess due to you not replying to the
last E-Mail, you disagree with having a
meeting with [Mrs. Lippard] and [Mr.
Lippard].
I am very saddened[.] Could it be that
they were wronged and have additional
information to prove it[?] Could it be
that others should also be present at a
meeting to address their part of the
issues[?] Could it be that you and the
committ[e]es were totally right[?] By
giving them an additional meeting[,]
could [it] settle the whole matter or
not[?] There is everything to gain and
nothing to lo[ ]se. Is everything better
now by not giving them additional
attention or not? When I was the[re]
last[, DHBC] members were going
around telling other members not to
speak to [Mr. Lippard].
Is this Christian actions[?] By not
giving them the needed attention they
deserve[?] You, committee members
and others should give them an apology
for the way things were handled. You
know yourself that [Mr. Lippard] was
only protecting his wife and trying to
get someone[’s] attenti[on] about
setting up a meeting and settling the
Issues!

36a
[Holleman] I have been very concerned
about your ministry and would not
want anything to hinder that[.] Also[,] I
always try to think of [DHBC] and ways
[to] prevent conflict. [DHBC] has been
through many Issues in the past.
Mostly petty issues which t[ea]r the
cong[r]e[g]ation apart[.] WE should
learn from our mistakes[.]
However[,] it appears that we don’t
always. That’s also partially why our
membership does not grow. I trust that
everyone will do what[’]s right through
this conflict by showing love and
concern for all, even through conflicts.
Signed[,]
[Brewer]
[Header of the 6 April 2013 5:25 PM
email by Holleman replying to Brewer.]
I didn’t respond because you wrote that
you had said all you wanted on the
matter. My assumption was that you
had also heard all you wanted.
You’re correct in assuming that I and
the Deacons, and the Personnel
Committee will not provide another
meeting with [Mr. Lippard] and [Mrs.
Lippard]. We have had 5 meetings with
[Mr. Lippard] and [Mrs. Lippard] and if
you count the [DHBC]-wide meeting,
they’ve had no fewer than 6

37a
opportunities to ask their questions. In
each of these meetings we have
answered their questions along with
numerous times in one on one
conversations.
The Deacons have indicated to [Mr.
Lippard] that if he wanted to have a
conversation about reconciliation, we
would be happy to have that
conversation. We will not provide [Mr.
Lippard] with a public platform to
make accusations against [Hix] or the
leadership which he cannot give
evidence for beyond his own suspicions.
I Timothy 5:19 says, “Receive not an
accusation against an elder without
two or three witnesses.” True, [DHBC]
doesn’t elect elders, but leaders serve
the same function, particularly staff
members. How would you like it if a
single person came to me and
demanded a church meeting to publicly
accuse you of all kinds of things without
having a single substantial piece of
evidence or a witness to validate those
accusations? Would you be so eager for
that meeting? I think not.
So then your suggestion that we
abandon the Biblical instruction and
“give [Mr. Lippard] all the meetings he
wants” to make all the accusations he
wants certainly does not have the good
and health of [DHBC] in mind. You are

38a
advocating for [Mr. Lippard]’s desire to
do what the scriptures forbid. I am
certain that if [Mr. Lippard] had any
substantial evidence to validate any of
his claims, we would have been
informed by now via phone call, E-mail,
or personal contact. He certainly has
not been reluctant to raise his “points”
thus far.
I would add that you continue to refer
to “others being in a meeting.” I’m at a
loss to understand why you and [Mr.
Lippard] cannot seem to understand
that [Hix] hasn’t been a part of the
discussions since August 22, 2012?
We’ve not been defending [Hix], or his
actions past or present, yet every time
you send an e-mail or every time [Mr.
Lippard] confronts someone, it involves
[Hix]. The actions of the Leadership
and 59% of [DHBC] are not a
vindication of [Hix] or his actions, they
are simply the actions resulting from
[Mr. Lippard] & [Mrs. Lippard]’s
refusal to yield to what the Word of God
says.
I very much protest your implied
accusation that [Mr. Lippard] has some
information that we are trying to
suppress by not allowing him to have a
meeting. I think seven months of
meetings and discussions is ample, in

39a
fact abundant, time for him to have
brought such evidence forward.
Your opinion is getting pretty clear.
You obviously agree with [Mr. Lippard]
that we or (I) have not acted Biblically
or in a Christian manner towards [Mr.
Lippard] and [Mrs. Lippard]. If that’s
true then I ask that you provide some
evidence of that beyond your own
opinion. Otherwise you are very close to
becoming a false witness against those
who are called to lead [DHBC]
according to God’s word. (Ephesians
4:11-12)
An additional meeting will not settle
the whole matter, because the “matter”
to be settled is whether or not [Mr.
Lippard] and [Mrs. Lippard] are going
to obey God and the scriptures. They
have refused to yield from the
beginning to the Word of God. I am
exhausted with trying to explain that to
you, and your continuing advocacy for
[Mr. Lippard] and [Mrs. Lippard] have
made it increasingly difficult for us to
keep directing their attention to the
Biblical injunction to be reconciled.
Your encouraging them and lending a
sympathetic ear, have only deepened
their resolve to reject our appeals and
while you think yourself to have been
acting in a Christian manner toward
them, you have actually (unwittingly or

40a
not) contributed to pushing them
farther away from the Lord and the
true peace that might have been, and
still may be, found in Him.
That [Mr. Lippard] and [Mrs. Lippard]
are out of fellowship with God and
[DHBC] is painfully evident in the
methods they are employing against
the leadership of [DHBC]. I can’t tell
you how many times [Mr. Lippard] has
twisted my words to make them say
something to fit his agenda. He even
claimed that I admitted to him that “I
framed him and [Mrs. Lippard] with
the August 22nd meeting.” Absurd! He
always fails to inform folks that I was
very explicit with the conditions set for
the meeting, days before, at the start,
and again at the conclusion of that
meeting. [Mr. Lippard] agreed to those
conditions, and even admitted later
that he did so because he knew that it
was the only way he could get a face to
face meeting with [Hix].
I ask you[: W]ho was being dishonest
there?
I
was
completely
straightforward and transparent about
the nature of that [Wednesday]
meeting [on 22 August 2012], and he
agreed only so that he could conceal his
true motive. That should tell you that
[Mr. Lippard] and [Mrs. Lippard] did
not come into that meeting seeking

41a
reconciliation as was the stated
purpose, but to confront [Hix] with
their accusations. And accuse they did!
[Mr. Lippard] finally just interrupted
me bluntly, dismissed the scripture I
had used, and demanded of [Hix] an
explanation for the song reassignment.
[Hix] answered and that didn’t satisfy
them and [Mr. Lippard] and [Mrs.
Lippard] immediately went after him.
At that point, as indicated to them
beforehand, I ended the meeting and
informed them that matter would
follow the Matthew 18 mandate. There
were witnesses there to confirm
everything I’ve said about that
[Wednesday] meeting.
No person in leadership has endorsed
anything less than respectful behavior
toward [Mr. Lippard] and [Mrs.
Lippard]. If there are members,
leadership and otherwise who have who
have refused to speak to [Mr. Lippard]
and [Mrs. Lippard], they have not done
so at my request. I have been cordial
and respectful to [Mr. Lippard] and
[Mrs. Lippard], prior to the church vote
and following it.
If folks have been standoffish, it might
have something to do with [Mr.
Lippard] and [Mrs. Lippard]’s behavior.
Some folks have witnessed their
confrontations. There were several there

42a
the Wednesday night that [Mr.
Lippard], with [Mrs. Lippard] behind
him, blocked [Hix]’s exit from the music
room and was aggressively going after
[Hix], pointing his finger in [Hix]’s face,
an action I recently learned was illegal
and could have very well been reported
as a crime. (emphasis added).
Add to these the numerous “parking
lot”
confrontations,
and
angry
telephone calls, and it might at least
explain why some folks are avoiding
them. I’m not suggesting that this is the
right response, but you make it sound
as though the folks that are “shunning”
them are doing so without any
provocation at all. To be honest with
you, there are a few that are even
frightened
by
[Mr.
Lippard]’s
aggressiveness, and I’ve told him this.
Having said this, I would say that the
withholding of full fellowship from a
rebellious and disobedient (To the
Scriptures) believer has Biblical
precedent (2 Thessalonians 3:14-15;
Romans 16:17-18).
For this reason, while I have tried to
speak to [Mr. Lippard] and [Mrs.
Lippard] at every opportunity, and be
respectful and cordial, I have not
treated them in such a way as to imply
or suggest to them that they have been
restored to full fellowship with [DHBC].

43a
They cannot reject the Word of God and
refuse to be reconciled to their brothers
and still enjoy a proper fellowship with
God and it is wrong and unloving to
treat them in such a way as to obscure
that reality. If the Lord brings to mind
by the Holy Spirit or through His word
that I have wronged or acted wrongly
toward [Mr. Lippard] and [Mrs.
Lippard] or anyone else, you can be
assured that I will make that right
without delay. But as I’ve said to you
multiple times already, if you or [Mr.
Lippard] and [Mrs. Lippard] can
demonstrate Biblically that this issue
has been mishandled or that grace and
mercy and the humility of Galatians 6:1
has been omitted, I will gladly
apologize.
Did you know that I have submitted for
the review of four fellow Pastors, a
written account of every action we’ve
taken and every decision I’ve
personally made, including all the
arguments that [Mr. Lippard] and
others have raised[?] [A]nd do you know
that they have not discovered a single
error in our handling of it, and in fact
have
commended
the
[DHBC]
leadership for the thoroughness and
Biblical consistency with which they’ve
navigated
through
this
issue[?]
Obviously God will be the final judge,

44a
but I find great encouragement that
four of my mentors, Pastors who have
been in the ministry for years, have
said that they weren’t sure that they
would have “handled” it as well.
For this grace, I am deeply grateful to
God. I have spent hours agonizing over
decisions and the words with which I
should convey them, and in my flesh, I
would have surely failed miserably, but
all the while, God was impressing me to
just follow the Word. With His grace,
and to His glory, that’s exactly what
we’ve done. I am content if we have
been pleasing to Him. You may have
been concerned about me personally,
but I don’t think you have been
concerned about “the ministry to which
God has called me.” In fact, I don’t
think you really understand that
ministry.
For me, church is not merely a
background scene in front of which I
live my life. I’m not just pulpit furniture
that just happens to be in place each
Sunday morning, Sunday night, and
Wednesday. When I stand in that
Pulpit, I feel the weight of the
responsibility to “rightly divide the
Word.” There is an urgency in my heart
that almost makes me feel as though if
I don’t preach in such a way as to
display the glory of Christ, I will have

45a
utterly failed. There’s a desperation in
my heart that everyone present might
see that we don’t just have a religious
book in our hands but the very word
and voice of God Almighty. You may
think that my aim is to “keep the
peace,” but you forget that the Lord
Himself said, “Think not that I have
come to bring peace on the earth, but a
sword....” (Matthew 10:34-39).
Oh don’t misunderstand, I’m a peace
lover too. By nature I’m not
confrontational at all. But I will not
settle for a superficial peace that
continues to allow sin to fester and
grow under the surface, only to erupt at
the slightest “petty” disagreement, and
I’m fully aware that that position will
not be appreciated by all. Jesus said as
much, if you’ll read the entire reference
mentioned above (Mat. 10:34-39)[.]
You’re right, [DHBC] in large part has
not learned from its past mistakes and
one of those mistakes has been to avoid
confrontation when it was actually
confrontation that was needed to
expose the root that caused it. (1
Corinthians
11:18-19)
Equally
contributing to that error is the
unbiblical idea of the church as a
collection of individuals, completely
without accountability. We’ve adopted
an Americanized Christianity that has

46a
everyone as independent and selfdetermining lone-rangers. Did you
know that nothing could be farther
from the Bible? What [DHBC] has
never learned is that without willful
submission to becoming accountable to
God and other believers, the intimacy
that everyone claims to want and enjoy
is impossible. So resistant are we to the
ideal of humble submission and willful
vulnerability that we’ve decided that
we would settle for a shallow, soon to be
broken, intimacy. I suspect that
[DHBC] has settled for that for so many
years that they’ve began to think that’s
the norm. It’s not ... I assure you!
The Lord can change that though, and
I think that’s what He might be up to in
all of the last seven months. The
question I suppose is this: “will I, will
you, will [Mr. Lippard] and [Mrs.
Lippard], will [DHBC] trust God
enough to simply obey Him? Will we
wait for him to lead us through the
darkness of this present valley,
believing with our whole heart that
there’s a bright meadow on the other
side?[”]
This may be more than you can digest
in one reading, but I don’t think I need
to say much more than this. No, I
absolutely don’t agree with you on
multiple Biblical grounds, but the

47a
increasingly
antagonistic
and
accusatory tone of your e-mails suggest
to me that I’m alienating you ever
farther and since that makes no sense
and is not ultimately helpful, I’ll just
leave things as they are.
I would add one more question. With
the exception of my leaving the jobsite
angrily many years ago, [i]n the 28
years you have known me and in the 7
years I’ve served as Pastor at [DHBC],
have you observed anything in my
character that would suggest to you
that I would have acted as maliciously
in this issue as [Mr. Lippard] has
undoubtedly portrayed me to you and
others? [I]f not, I can’t understand how
you would so quickly attribute to me
the character he suggests.
If I have in fact acted as treacherously
and deceitfully as [Mr. Lippard] would
have you believe, there is a
constitutional recourse available to you
and [Mr. Lippard]. You can develop and
circulate a petition for my dismissal as
Pastor. You can force a motion before
[DHBC] with a petition signed by 25%
of the membership and [DHBC] will be
forced to vote on the matter.
To be honest, if I am guilty of what [Mr.
Lippard] charges me with and what you

48a
suspect me of, you would be well within
your Christian duty to do exactly that.
Respectfully and Prayerfully,
Larry
[Header of the 6 April 2013 6:45 PM
email from Brewer to Holleman.]
Hi [Holleman,]
I know that the committee members
were addressing [Mrs. Lippard] only, I
knew that then[.] However[, Hix] was
[a part] of the conflict with the song and
as Director. This part is my real issue.
I have had issues with [Hix] before and
believe there [is] more to it. [N]o one is
perfect[.] [H]owever[, Hix] should be
willing to address their issues. That
may be why they want another
meeting. Another meeting can[’]t hurt
and may settle it all. No reply
necessary[.]
[Brewer]
[Header of the 7 April 2013 email from
Brewer to Holleman.]
I was thinking about the letter
overnight. I think how ironic you twist
and turn things around and now
blaming me. I guess I am to blame for
at least one thing[—s]howing concern[.]
Let me ask you this[, d]id [Mrs.
Lippard] agree to go through

49a
reconciliation about the issues 2 1/2
years ago and did you say things were
going well[?] Did you say that you were
going to recommend to the [D]eacons to
drop the issues[?] If that is the case,
why was that reinstated as a
problem[?] I have said in the beginning
that [Hix] should be at the meeting on
Wednesday night in question. The song
issue has not been settled. Until [Hix]
is willing to meet with [Mrs. Lippard]
and [Mr. Lippard] and settle their
issues. There is no reconciliation. I
don’t know what they wanted to discuss
in a meeting[.] But[,] I think another
meeting is necessary. If [Hix] had been
present at the Wednesday night
meeting in question, things could have
been possibly settled. I never intended
to question your abilities[.] Only to grab
your attention[.] I would not want you
to lo[ ]se your job over this. Also[, i]t
bothers me big time that this can and
does affect [DHBC] membership. We
must handle issues above board as
quickly as possible.
Sign
[Brewer]
Reply
As in Harris, we would be forced to determine
whether the statement at issue is proper in light of
DHBC’s customs, doctrine, and practice regarding

50a
membership and conduct. The statement arose from
Holleman’s observations of how “folks” in the church
“have been standoffish” and “have witnessed [Plaintiffs’] confrontations.” The email’s language, after the
statement, explicitly discusses that “withholding of
full fellowship from a rebellious and disobedient (To
the Scriptures) believer has Biblical precedent (2
Thessalonians 3:14-15; Romans 16:17-18).” Looking
into DHBC’s membership governance and how it
should react to what it considers improper conduct
would require examining church customs, doctrine,
and practice.
c. 25 April 2013 Letter
Finally, Plaintiffs contend Holleman defamed
them in the 25 April letter to Mr. Myers. Specifically,
Plaintiffs challenge Holleman’s statement that “[Hix]
indicated his willingness to acknowledge his own failures and ask forgiveness. [Mrs. Lippard] did not!”
They argue that statement is false because “[Mrs. Lippard] apologized to Hix several times, even in writing,
for any perceived or actual missteps on her behalf.” As
in the 28 November 2012 sermon discussed above, we
are barred from evaluating this statement under the
ecclesiastical entanglement doctrine because, in determining the truth or falsity of the claim that Mrs.
Lippard did not “acknowledge [her] own failures and
ask forgiveness,” we would have to interpret and
weigh DHBC doctrine to determine what constitutes
“acknowledgement” of failures and “ask[ing] forgiveness” as part of DHBC’s process of reconciliation.
Therefore, analysis of this statement is barred by the
First Amendment.

51a
None of the statements at issue here are purely
secular, but we can imagine scenarios where members
of a religion make defamatory statements wholly
apart from religion. Churchgoers could make defamatory statements against one another outside their
religious lives and instead in their personal, business,
academic, or other aspects of their temporal existence.
But the statements at issue here were made between
members of the same congregation—including its pastor—about
an
internal
dispute
regarding
ecclesiastical matters. All the statements before us
would unconstitutionally require examining or interpreting ecclesiastical matters or religious doctrine,
and we may not do so under the First Amendment or
the North Carolina Constitution.
CONCLUSION
Plaintiffs appeal the trial court’s grant of summary judgment and argue several errors. We affirm
the trial court’s order on the ground that all statements Plaintiffs challenge are barred by the
ecclesiastical entanglement doctrine. Having determined all of Plaintiffs’ claims on this ground, we do
not address Plaintiffs’ remaining challenges.
AFFIRMED.
Judge BERGER concurs.
Chief Judge MCGEE concurs in part, dissents in
part, and concurs in the judgment in a separate opinion.
McGEE, Chief Judge, concurring in part, dissenting in part, and concurring in the judgment.

52a
I disagree with the majority that the ecclesiastical
entanglement doctrine under the Establishment
Clause and Free Exercise Clause of the First Amendment and Article I, Section 13 of the Constitution of
North Carolina bars the courts of our state from considering defamation claims as to all the alleged
statements challenged by Plaintiffs in the present
case. I would hold that some of the claims at issue are
barred by the ecclesiastical entanglement doctrine;
however, four others are not.
I. Summary
In determining whether the ecclesiastical entanglement doctrine bars the courts of our state from
considering an issue, the fundamental question is
“whether resolution of the legal claim requires the
court to interpret or weigh church doctrine.” Smith v.
Privette, 128 N.C. App. 490, 494, 495 S.E.2d 395, 398,
appeal dismissed, 348 N.C. 284, 501 S.E.2d 913 (1998)
(citing Serbian E. Orthodox Diocese v. Milivojevich,
426 U.S. 696, 710, 96 S.Ct. 2372, 2381, 49 L.Ed.2d
151, 163 (1976)). In the context of a defamation claim,
which in North Carolina as in other states includes as
an essential element the falsity of the statement
made, whether courts may apply neutral principles to
resolve the claim depends on whether determining the
truth or falsity of the allegedly defamatory statement
“requires the court to interpret or weigh church doctrine.” Although the majority applies this test
correctly in some places, in others it expands this
analysis by holding that courts are barred from analyzing defamation claims where they arise out of
“matter[s] of [ ] internal membership, organization,
governance, discipline, and degree of control between

53a
members[,]” even when the allegedly defamatory
statements do not on their face address those topics
and determining the truth or falsity of those statements would not require our courts to pass upon
ecclesiastical issues, such as where one party accuses
another of a crime, or of lying about “verifiable facts.”
The majority’s reading is at odds with precedent in
this state and would “go beyond First Amendment
protection and cloak [religious] bodies with an exclusive immunity greater than that required for the
preservation of the principles constitutionally safeguarded,” Smith, 128 N.C. App. at 495, 495 S.E.2d at
398 (citation omitted), effectively prohibiting recovery
by those harmed by tortfeasors on the basis of the victims’ religious affiliation.6
In the case of defamation claims, I would hold that
courts must evaluate the specific elements of the
claim, including the falsity of the alleged statement,
and determine whether “resolution of [the truth or falsity of the alleged statement] requires the court to
interpret or weigh church doctrine. If not, the First
Amendment is not implicated and neutral principles
of law are properly applied to adjudicate the claim.”
Smith, 128 N.C. App. at 494, 495 S.E.2d at 398. Based
on this analysis, I concur with the majority’s holding
for some of Plaintiffs’ defamation claims that they are
See N.C. Const. Art. I, sec. 18 (“every person for an injury done
him in his lands, goods, person, or reputation shall have remedy
by due course of law[.]”); id. Art. I, sec. 19 (“No person shall be
denied the equal protection of the laws; nor shall any person be
subjected to discrimination by the State because of ... religion
....”).
6

54a
barred because resolving the claims would require
courts to interpret or weigh church doctrine. For four
allegedly defamatory statements discussed below,
however, I disagree and would hold that there is no
need for the court to interpret or weigh church doctrine in its adjudication of the truth or falsity of these
claims. Therefore, I dissent in part.
For the claims that I would hold are not barred by
the ecclesiastical entanglement doctrine, I would nevertheless hold that Plaintiffs have not shown
sufficient evidence for libel per se or special damages
as required for libel or slander per quod. Therefore, I
concur in the majority’s judgment affirming the trial
court’s grant of summary judgment for Defendants.
II. Analysis
The Establishment Clause and Free Exercise
Clause of the First Amendment and Article I, Section
13 of the North Carolina Constitution prohibit civil
courts “from becoming entangled in ecclesiastical matters.” Doe v. Diocese of Raleigh, 242 N.C. App. 42, 47,
776 S.E.2d 29, 35 (2015) (citation omitted); see Harris
v. Matthews, 361 N.C. 265, 270, 643 S.E.2d 566, 569
(2007) (“The constitutional prohibition against court
entanglement in ecclesiastical matters is necessary to
protect First Amendment rights identified by the ‘Establishment Clause’ and the ‘Free Exercise Clause.’ ”
(citation omitted)). Our Supreme Court has long defined an “ecclesiastical matter” as
one which concerns doctrine, creed, or
form of worship of the church, or the
adoption and enforcement within a religious association of needful laws and

55a
regulations for the government of membership, and the power of excluding
from such associations those deemed
unworthy of membership by the legally
constituted authorities of the church;
and all such matters are within the
province of church courts and their decisions will be respected by civil
tribunals.
E. Conference of Original Free Will Baptists of N.C. v.
Piner, 267 N.C. 74, 77, 147 S.E.2d 581, 583 (1966) (citation and quotation marks omitted), overruled in
part on other grounds by Atkins v. Walker, 284 N.C.
306, 200 S.E.2d 641 (1973).
In the present case, however, Plaintiffs challenge
neither the “adoption and enforcement within a religious association of needful laws and regulations for
the government of membership,” nor DHBC’s “power
of excluding from such associations those deemed unworthy of membership by the legally constituted
authorities of the church.”7 Whether ecclesiastical
matters are implicated in Plaintiffs’ claims for defamation in the present case turns on whether the

In a previous case this Court held the same plaintiffs were
barred from doing so. See Lippard v. Diamond Hill Baptist
Church, 261 N.C. App. 660, 821 S.E.2d 246, 249 (2018) (holding
plaintiffs’ claim they were improperly excluded from church even
though they did not “take any action to have themselves removed
from church membership” was ecclesiastical matter under above
definitions) (citation omitted).
7

56a
claims “concern doctrine, creed, or form of worship of
the church.”
“The dispositive question” in determining
whether a court is barred from deciding a cause of action because it would become entangled in
ecclesiastical matters “is whether resolution of the legal claim requires the court to interpret or weigh
church doctrine. If not, the First Amendment is not
implicated and neutral principles of law are properly
applied to adjudicate the claim.” Smith, 128 N.C. App.
at 494, 495 S.E.2d at 398 (citing Milivojevich, 426 U.S.
at 710, 96 S.Ct. 2372, 49 L.Ed.2d at 163). The application of the ecclesiastical entanglement doctrine to
defamation claims is a question of first impression in
North Carolina and our precedents delineate the contours of the ecclesiastical entanglement doctrine and
are applicable here.
A. North Carolina Caselaw on Ecclesiastical Entanglement Doctrine
In Atkins v. Walker, 284 N.C. 306, 200 S.E.2d 641
(1973), which this Court described as the “seminal
case” on the ecclesiastical entanglement doctrine in
Emory v. Jackson Chapel First Missionary Baptist
Church, 165 N.C. App. 489, 493-94, 598 S.E.2d 667,
671 (2004), a dissenting faction of a Baptist church
filed a complaint against members of the church and
the pastor seeking a declaration that the plaintiffs
were the “true congregation,” that the pastor-defendant “be restrained from continuing to act as its pastor”
and that the defendants be required to surrender the
church property to the plaintiffs. Walker, 284 N.C. at
307, 200 S.E.2d at 642. The complaint alleged that a

57a
division had arisen in the congregation and the plaintiffs remained faithful to the previous doctrines and
practices of the church while the defendants had departed from those doctrines and practices. Id. at 307,
200 S.E.2d at 643. The trial court submitted questions
to the jury asking it to determine (1) whether plaintiffs remained faithful to the doctrines and practices
of the church as previously practiced and (2) whether
the defendants “departed radically and fundamentally from the characteristic usages, customs,
doctrines and practices of the [church.]” Id. at 308, 200
S.E.2d at 643.
Our Supreme Court applied the Supreme Court of
the United States’ decision in Presbyterian Church in
the United States v. Mary Elizabeth Blue Hull Memorial Presbyterian Church, 393 U.S. 440, 89 S.Ct. 601,
21 L.Ed.2d 658 (1969), reasoning that “questions must
be resolved on the basis of [neutral] principles of
law”—principles “developed for use in all property disputes.” Id. at 319, 200 S.E.2d at 650 (citation omitted).
For example, courts could determine “(1) [w]ho constitutes the governing body of this particular [ ] church,
and (2) who has that governing body determined to be
entitled to use the properties.” In contrast, the First
Amendment and Article I, Section 13 of the Constitution of North Carolina prohibit a decision of property
rights based on “a judicial determination that one
group of claimants has adhered faithfully to the fundamental faiths, doctrines and practices of the church
... while the other group of claimants has departed
substantially therefrom.” Id. at 318, 200 S.E.2d at
649. Although our Supreme Court noted that the
plaintiffs could have prevailed “by showing that such

58a
action was not taken in a meeting duly called and conducted according to the procedures of the church,” id.
at 320, 200 S.E.2d at 651, it concluded there was no
evidence in the record to support such assertion and
the trial court’s opinion must have been based on an
inquiry barred by the ecclesiastical entanglement doctrine. Id. at 321, 200 S.E.2d at 651.
Notably, Atkins does not bar all inquiries in disputes over church property merely because the
property is church property, the parties are religious
members and organizations, or the dispute arose in a
religious context. Rather, our Supreme Court held
that “[i]t nevertheless remains the duty of civil courts
to determine controversies concerning property rights
over which such courts have jurisdiction and which
are properly brought before them[.]” Id. at 318, 200
S.E.2d at 649. Relying on Presbyterian, our Supreme
Court stated that “[n]either the First Amendment to
the Constitution of the United States nor the comparable provision in Article I, Section 13, of the
Constitution of North Carolina deprives those entitled
to the use and control of church property of protections
afforded by government to all property owners alike,
such as ... access to the courts for the determination of
contract and property rights.” Id. at 318, 200 S.E.2d
at 649. In conclusion, “[w]here civil, contract[,] or
property rights are involved, the courts will inquire as
to whether the church tribunal acted within the scope
of its authority and observed its own organic form and
rules.” Id. at 320, 200 S.E.2d at 650 (quoting W. Conference of Original Free Will Baptists v. Creech, 256
N.C. 128, 140-41, 123 S.E.2d 619, 627 (1962)).

59a
In Harris v. Matthews, our Supreme Court reaffirmed the principles of Atkins and applied them to a
new cause of action—a claim for breach of fiduciary
duty by a minority faction of a congregational church
against the pastor, secretary, and chair of the board of
trustees, based on the allegation that the pastor-defendant “ha[d] usurped the governmental authority of
the church’s internal governing body.” Harris, 361
N.C. at 272, 643 S.E.2d at 571. The Supreme Court
noted that the plaintiffs claimed the defendants
breached their fiduciary duty “by improperly using
church funds, which constitutes conversion.” Id. at
273, 643 S.E.2d at 571. Our Supreme Court held that
the issue of whether the expenditures were proper
could not be resolved by neutral principles of law because “[d]etermining whether actions, including
expenditures, by a church’s pastor, secretary, and
chairman of the Board of Trustees were proper requires an examination of the church’s view of the role
of the pastor, staff, and church leaders, their authority
and compensation, and church management[,]” and
“[b]ecause a church’s religious doctrine and practice
affects its understanding of each of these concepts[.]”
Id. at 273, 643 S.E.2d at 571. Although the ecclesiastical entanglement doctrine barred the claim at issue,
the Harris Court reaffirmed that “[w]here civil, contract[,] or property rights are involved, the courts will
inquire as to whether the church tribunal acted within
the scope of its authority and observed its own organic
forms and rules.” Id. at 274-75, 643 S.E.2d at 572 (citation omitted).
This Court has applied the principles of the ecclesiastical entanglement doctrine in Atkins and Harris

60a
to other causes of action and clarified the test for
whether the ecclesiastical entanglement doctrine will
bar courts from considering a claim. In the leading
case of Smith v. Privette, the plaintiffs, former church
employees, sued a United Methodist Church, the District of the North Carolina Conference of the United
Methodist Church, and the North Carolina Conference of the United Methodist Church (together,
“church defendants”), alleging claims for negligent retention and supervision based on sexual misconduct
by a pastor against the employees. Reversing the trial
court, this Court held the ecclesiastical entanglement
doctrine under the First Amendment did not bar
courts from deciding the negligent retention and supervision claims. Smith, 128 N.C. App. at 495, 495
S.E.2d at 398. This Court held that, in determining
whether the ecclesiastical entanglement doctrine
would bar a claim, it must answer “the dispositive
question” of “whether resolution of the legal claim requires the court to interpret or weigh church doctrine.
If not, the First Amendment is not implicated and
neutral principles of law are properly applied to adjudicate the claim.” Id. at 494, 495 S.E.2d at 398 (citing
Milivojevich, 426 U.S. at 710, 96 S.Ct. at 2381, 49
L.Ed.2d at 163). This Court applied that test and held
that while “the decision to hire or discharge a minister
is inextricable from religious doctrine and protected
by the First Amendment from judicial inquiry,” the
plaintiffs’ claim, rather than requiring “the trial court
to inquire into the [c]hurch [d]efendants’ reasons for
choosing Privette to serve as a minister,” “instead presents the issue of whether the [c]hurch [d]efendants
knew or had reason to know of Privette’s propensity
to engage in sexual misconduct,” which is “conduct

61a
that the [c]hurch [d]efendants do not claim is part of
the tenets or practices of the Methodist Church.” Id.
at 495, 495 S.E.2d at 398 (internal citation omitted).
Therefore, “there [wa]s no necessity for the court to
interpret or weigh church doctrine in its adjudication
of the [p]laintiffs’ claim for negligent retention and supervision.” Id. at 495, 495 S.E.2d at 398. In so holding,
this Court noted that “[t]he First Amendment ... does
not grant religious organizations absolute immunity
from liability.” Id. at 494, 495 S.E.2d at 397. “Indeed,
the application of a secular standard to secular conduct that is tortious is not prohibited by the
Constitution.” Smith, N.C. App. at 494, 495 S.E.2d at
397 (internal citations and quotation marks omitted).
In Emory v. Jackson Chapel First Missionary Baptist Church, the plaintiff church members brought an
action against the church and the pastor, alleging
they provided insufficient notice to plaintiffs as required by the church bylaws for a meeting at which
the church altered its corporate structure and that defendants also violated the plaintiffs’ contractual and
property rights by failing to follow the procedure. This
Court explicitly noted that “[o]ur Supreme Court has
held that a trial court’s exercise of jurisdiction is improper only where ‘purely ecclesiastical questions and
controversies are involved.’ ” Id. at 492, 598 S.E.2d at
670 (quoting W. Conference of Original Free Will Baptists of N.C. v. Creech, 256 N.C. 128, 140, 123 S.E.2d
619, 627 (1962)). This Court held the ecclesiastical entanglement doctrine barred the trial court from
determining whether the defendants provided the
plaintiffs with sufficient notice under the bylaws, because ambiguities existed in the bylaws and “long-

62a
established church customs exist[ed] that may [have]
alter[ed] the interpretation of the notice requirements
[in the bylaws].” Id. at 492, 598 S.E.2d at 670. Thus,
“the trial court would be required to delve into ‘ecclesiastical matters’ regarding how the church interprets
the [ ] notice requirements and types of meetings [in
the bylaws.]” Id. at 493, 598 S.E.2d at 671 (quoting
Piner, 267 N.C. at 77, 147 S.E.2d at 583). In addition,
this Court noted that, while plaintiffs asserted contract and property rights were implicated, the “heart
of this matter [wa]s a change in the structure of the
church” and “the claims of [the] plaintiffs [ ] only tangentially affect[ed] property rights.” Id. at 494, 495,
598 S.E.2d at 671, 672. Thus, there was no “substantial property right” affected by the incorporation and
the trial court properly held the ecclesiastical entanglement doctrine barred the claim. Id. at 495, 598
S.E.2d at 672.
Although the plaintiffs’ claims in Emory “only tangentially affect[ed] property rights,” id. at 495, 598
S.E.2d at 672, this Court has clarified the relationship
between church membership as an ecclesiastical matter and property rights in subsequent cases. In
Tubiolo v. Abundant Life Church, Inc., 167 N.C. App.
324, 605 S.E.2d 161 (2004), we held that “membership
in a church is a core ecclesiastical matter[,]” and “[i]t
is an area where the courts of this State should not
become involved.” Tubiolo, 167 N.C. App. at 328, 605
S.E.2d at 164. However, we also held that “the plaintiffs’ membership in the defendant is in the nature of
a property interest, and that the courts do have jurisdiction over the very narrow issue of whether the
bylaws were properly adopted by the defendant.” Id.

63a
at 329, 605 S.E.2d at 164 (citing Bouldin v. Alexander,
82 U.S. (15 Wall.) 131, 139-40, 21 L.Ed. 69, 71-2
(1872)). Therefore, the case was distinguishable from
Emory, because membership rights were implicated
and “[t]his inquiry [into whether the bylaws were
properly adopted] can be made without resolving any
ecclesiastical or doctrinal matters.” Id. at 329, 605
S.E.2d at 164-65. Nevertheless, this Court provided
an important caveat on Tubiolo in Azige v. Holy Trinity Ethiopian Orthodox Tewahdo Church, 249 N.C.
App. 236, 790 S.E.2d 570 (2016), where we held that
the trial court was barred from considering issues
based on church membership status because the issues “would require interpretation of [church] bylaws
which do impose doctrinal requirements.” Azige, 249
N.C. App. at 242, 790 S.E.2d at 575. For example,
“[t]he courts c[ould]not determine the ‘immoral behavior’ of plaintiffs for purposes of the bylaws ....” Id. at
244, 790 S.E.2d at 575. These claims “raise questions
which ... would ‘require[ ] the court to interpret or
weigh church doctrine’ in contravention of the First
Amendment,” violating the test in Smith. Id. at 244,
790 S.E.2d at 575 (quoting Davis v. Williams, 242 N.C.
App. 262, 263, 774 S.E.2d 889, 892 (2015)).
Besides property claims which involve ecclesiastical matters, this Court has also addressed tort and
contract claims under the ecclesiastical entanglement
doctrine. In Doe v. Diocese of Raleigh, the plaintiff
filed complaints against the Diocese of Raleigh, the
Bishop of the Diocese, and a priest of the diocese alleging, among other claims, claims for negligence
against the Diocese and the Bishop, arguing they negligently supervised the priest and failed to educate the

64a
plaintiff about boundaries or require STD testing by
the priest. Doe, 242 N.C. App. at 43-44, 776 S.E.2d at
32-33. Relying on Smith and Harris, this Court “examine[d] each of [the p]laintiff’s remaining causes of
action against the Diocese [d]efendants in order to determine whether its adjudication would require ‘an
impermissible analysis by the court based on religious
doctrine or practice.’ ” See id. at 49, 776 S.E.2d at 36
(citing Johnson v. Antioch United Holy Church, Inc.,
214 N.C. App. 507, 510, 714 S.E.2d 806, 810 (2011);
Harris, 361 N.C. at 274, 643 S.E.2d at 572).
As to the claim for negligent supervision, this
Court analogized to the negligent supervision claim in
Smith and held that in Doe, as in Smith, the ecclesiastical entanglement doctrine did not bar courts from
determining whether the elements of negligent supervision could be established because, in both cases,
there was a “commonsense understanding that sexual
misconduct is not ‘part of the tenets or practices of the
[church.]’ ” Id. at 54, 776 S.E.2d at 38-39. Furthermore, this Court held that adjudicating the negligent
supervision claim would not require the trial court to
determine issues that “are inextricably bound up with
church doctrine,” “such as (1) whether [the priest]
should have ever been incardinated; (2) whether he
should have been allowed to remain a priest; or (3)
whether his relationship with the Diocese should have
been severed.” Id. at 55, 776 S.E.2d at 39. “[T]he issue
to be determined in connection with [the p]laintiff’s
negligent supervision claim [wa]s a purely secular
one.” Id. at 55, 776 S.E.2d at 39.
In contrast, this Court held courts were barred
from considering plaintiff’s claim that the Diocese

65a
negligently failed to compel the priest to undergo STD
testing because “this theory of liability is premised on
the tenets of the Catholic church—namely, the degree
of control existing in the relationship between a
bishop and a priest,” and it “seeks to impose liability
based on the Diocese [d]efendants’ alleged failure to
exercise their authority over a priest stemming from
an oath of obedience taken by him pursuant to the
church’s canon law.” Id. at 56, 776 S.E.2d at 40 (emphasis in original). Thus, this claim fails because “a
civil court is constitutionally prohibited from ‘interpos[ing] its judgment’ on the proper role of church
leaders and the scope of their authority ‘[b]ecause a
church’s religious doctrine and practice affect its understanding of each of these concepts.’ ” Id. at 56, 776
S.E.2d at 40 (quoting Harris, 361 N.C. at 273, 643
S.E.2d at 571).
Finally, this Court addressed a claim for breach of
contract in Bigelow v. Sassafras Grove Baptist
Church, 247 N.C. App. 401, 786 S.E.2d 358 (2016). In
Bigelow, a pastor claimed the defendants, a Baptist
church and its deacons, breached a contract and violated the North Carolina Wage and Hour Act by
failing to pay him compensation and benefits after he
became ill pursuant to a written contract entered into
between himself and the defendants. Bigelow, 247
N.C. App. at 402, 786 S.E.2d at 360. This Court held
the argument that “the First Amendment of the
United States Constitution immunizes, without exception, a religious institution from liability arising
out of a contract between the religious institution and
its ministerial employees,” was inconsistent with
Smith. Id. at 411, 786 S.E.2d at 366. Furthermore,

66a
this Court held the plaintiff’s claims did not “ask[ ] the
court to address ecclesiastical doctrine or church law”;
rather, they “require[d] the court only to make a secular decision regarding the terms of the parties’
contract and to apply the neutral principles of the
Wage and Hour Act.” Id. at 411-12, 786 S.E.2d at 366.
Therefore, the ecclesiastical entanglement doctrine
did not bar courts from considering the plaintiffs’ contract claims.
B. Application of Ecclesiastical Entanglement Doctrine to Defamation Claims
In summary, although the issue of the application
of the ecclesiastical entanglement doctrine to defamation claims is a question of first impression for North
Carolina, our state’s extensive caselaw on the doctrine
is “equally applicable here.” See Doe, 242 N.C. App. at
49, 776 S.E.2d at 36.
Our courts must look to the specific elements of
the cause of action to determine whether “neutral
principles of law exist to resolve plaintiffs’ claims.”
Harris, 361 N.C. at 273-74, 643 S.E.2d at 571. For instance, in Harris, our Supreme Court looked to the
specific elements of the cause of action for breach of
fiduciary duty and, in particular, the specific theory
under the element of breach advanced by the plaintiff
(i.e., “improperly using church funds,” or “conversion”)
in order to determine whether the ecclesiastical entanglement doctrine would bar the claim. See id. at
273, 643 S.E.2d at 571. Because resolving that specific
element would require courts to determine whether
actions by the church leadership were “proper” based
on the church’s view of the roles of those individuals,

67a
the Supreme Court held the claim in that case was
barred. Id. at 273, 643 S.E.2d at 571. Our courts have
first identified the cause of action and the specific elements of that claim at issue in determining whether
the claim is barred by the ecclesiastical entanglement
doctrine. Our courts then determine whether “neutral
principles of law exist to resolve plaintiffs’ claims.”
Harris, 361 N.C. at 273-74, 643 S.E.2d at 572; see Atkins, 284 N.C. at 319, 200 S.E.2d at 650
(“[D]eterminations must be made pursuant to ‘neutral
principles of law, developed for use in all property disputes.’ ” (citation omitted)). This Court has held that
we must answer “[t]he dispositive question” of
“whether resolution of the legal claim requires the
court to interpret or weigh church doctrine. If not, the
First Amendment is not implicated and neutral principles of law are properly applied to adjudicate the
claim.” Smith, 128 N.C. App. at 494, 495 S.E.2d at 398
(citing Milivojevich, 426 U.S. at 710, 96 S.Ct. at 2381
49 L.Ed.2d at 163).
In the present case, Plaintiffs allege multiple
claims for defamation, including libel and slander per
se and libel and slander per quod. “In order to recover
for defamation, a plaintiff generally must show that
the defendant caused injury to the plaintiff by making
false, defamatory statements of or concerning the
plaintiff, which were published to a third person.”
Desmond v. News and Observer Pub. Co., 241 N.C.
App. 10, 16, 772 S.E.2d 128, 135 (2015) (citation omitted). The only element of defamation that Defendants
argue violates the ecclesiastical entanglement doctrine is the first element: the falsity of the alleged
statement. I would hold that, in order to determine

68a
whether courts are barred from considering a claim
for defamation, they must evaluate the specific elements of the claim, including the falsity of the alleged
statement, and determine whether “resolution of [the
truth or falsity of the alleged statement] requires the
court to interpret or weigh church doctrine. If not, the
First Amendment is not implicated and neutral principles of law are properly applied to adjudicate the
claim.” Smith, 128 N.C. App. at 494, 495 S.E.2d at
398. However, if resolution of the claim would require
courts to interpret or weigh church doctrine, the ecclesiastical entanglement doctrine under the First
Amendment and Article I, Section 13 of the Constitution of North Carolina prohibit them from
adjudicating the claim.
This statement of the law, grounded in our Court’s
precedent and first adopted from United States Supreme Court precedent, is more consistent with
precedent than that adopted in the majority’s opinion,
which states that “[f]or defamation claims, we must
consider whether a statement is true or false without
examining or inquiring into ecclesiastical matters or
church doctrine.” The majority’s imprecise rule conflates the broad prohibition against courts becoming
entangled in “ecclesiastical matters” with the test
adopted in Smith for determining whether “neutral
principles of law are properly applied to adjudicate the
claim.” Smith, 128 N.C. App. at 494, 495 S.E.2d at 398
(citing Milivojevich, 426 U.S. at 710, 96 S.Ct. at 2381,
49 L.Ed.2d at 163). Where neutral principles of law
can be applied, resolving the claim would not impermissibly entangle the court in ecclesiastical matters.

69a
For instance, in Tubiolo, this Court held that “[m]embership in a church is a core ecclesiastical matter.”
Tubiolo, 167 N.C. App. at 328, 605 S.E.2d at 164. We
nevertheless held that “the plaintiffs’ membership in
[a church] is in the nature of a property interest, and
[ ]the courts do have jurisdiction over the very narrow
issue of whether the bylaws were properly adopted by
the [church].” Tubiolo, 167 N.C. App. at 329, 605
S.E.2d at 164.
The majority incorrectly asserts, relying on Doe,
that “[o]nly when an ‘issue to be determined in connection with [a party’s] claim is a purely secular one,”
then “[n]eutral principles of law govern th[e] inquiry
and ... subject matter jurisdiction exists in the trial
court over th[e] claim.’ ” (emphasis in original) (quoting Doe, 242 N.C. App. at 55, 776 S.E.2d at 39). This
is a misstatement of Doe and contrary to Emory where
this Court noted that “[o]ur Supreme Court has held
that a trial court’s exercise of jurisdiction is improper
only where ‘purely ecclesiastical questions and controversies are involved.’ ” Emory, 165 N.C. App. at 492,
598 S.E.2d at 670 (quoting Creech, 256 N.C. at 140,
123 S.E.2d at 627); accord W. Conference of Original
Free Will Baptists v. Creech, 256 N.C. 128, 140, 123
S.E.2d 619, 627 (1962) (“The legal or temporal tribunals of the State have no jurisdiction over, and no
concern with, purely ecclesiastical questions and controversies ... but the courts do have jurisdiction, as to
civil, contract[,] and property rights which are involved in, or arise from, a church controversy.”
(quoting Reid, 241 N.C. 201, 85 S.E.2d 114)). Under
Doe, while a claim being “purely secular” is a sufficient condition to avoid the ecclesiastical

70a
entanglement doctrine, it is not a necessary one, and
there may at times be a gray area of questions between those that are “purely secular” and “purely
ecclesiastical.”
The majority’s approach to defamation claims
does not consider our precedent which provides that
“the courts do have jurisdiction, as to civil, contract[,]
and property rights which are involved in, or arise
from, a church controversy.” Creech, 256 N.C. at 140,
123 S.E.2d at 627 (emphasis added) (quoting Reid,
241 N.C. 201, 85 S.E.2d 114). Where “neutral principles of law exist to resolve plaintiffs’ claims,” Harris,
361 N.C. at 273-74, 643 S.E.2d at 571-72, courts have
not only the power but the duty to resolve the plaintiffs’ claims, because “[n]either the First Amendment
to the Constitution of the United States nor the comparable provision in Article I, Section 13, of the
Constitution of North Carolina deprives [participants
in religious life] of protections afforded by government
to all ..., such as ... access to the courts for the determination of [civil,] contract[,] and property rights.”
Atkins, 284 N.C. at 318, 200 S.E.2d at 649. In the case
of defamation claims, I would hold that neutral principles of law exist and the ecclesiastical entanglement
doctrine does not bar a claim where resolving the
claim’s elements, including determining the truth or
falsity of the alleged defamatory statement, would not
require the court to interpret or weigh church doctrine.
C. Analysis of Plaintiffs’ Claims
I concur in the majority’s analysis of Plaintiffs’
defamation claims based on statements made by Mr.

71a
Holleman in the 13 November 2012 Letter, the 28 November 2012 Sermon, the Ballot and Absentee Ballot,
claims based on four statements made in the 16 January 2013 letter Mr. Holleman sent to Mr. Brewer,
and the claim based on a statement made in the 25
April 2013 letter Mr. Holleman sent to Mr. Myers. Analyzing these statements would require our courts to
“interpret or weigh church doctrine,” and, therefore,
resolving the claims would impermissibly entangle
courts in ecclesiastical questions in violation of the
First Amendment and Article I, Section 13 of the Constitution of North Carolina.
I disagree with the majority’s analysis of Plaintiffs’ defamation claims based on the 23 December
2012 oral statement allegedly made by Mr. Hix to an
unidentified congregant; the statement in the 8 January 2013 email to Mr. Brewer, a church choir member;
one claim based on a statement made in the 16 January 2013 letter Mr. Holleman sent to Mr. Brewer; and
the claim based on a statement made in the 6 April
2013 email Mr. Holleman also sent to Mr. Brewer. In
its analysis of these statements, the majority expands
the ecclesiastical entanglement doctrine to bar defamation claims that can be resolved by the application
of neutral principles of law. I will analyze these statements in turn.
(1) 23 December 2012 Alleged Oral Statement by Mr.
Hix
Plaintiffs argue the following statement they allege Mr. Hix made to an unidentified DHBC
congregant on 23 December 2012 is defamatory: “[Mr.]
Lippard is a liar and you and other people like you are

72a
believing him instead of Scripture.” In response, Defendants argue the statement “was made in the
context of Mr. Hix’s interpretation of and Mr. Lippard’s compliance with Scripture” and that “[a]n
inquiry into the falsity of the statement would require
a comparison of Mr. Lippard’s conduct with Scripture,
which also prohibits lying. (E.g., Rev. 21:8)” The majority argues that “we would need to inquire into
DHBC’s definition of lying, when to believe scripture,
and how scripture determines whom to believe,” and
that “[t]his is an issue over DHBC’s internal customs,
practices, morality, and degree of control between
members.”
This statement contains two independent clauses,
each with a complete thought. First, I would hold that
courts would not have to interpret or weigh church
doctrine in order to determine the truth or falsity of
the first part of the claim, that “[Mr.] Lippard is a
liar.” Contrary to the arguments of Defendants and
the majority, the meaning of “liar” in this alleged oral
statement is not ambiguous and would not require interpretation of the Book of Revelation, or
interpretation or weighing of “DHBC’s definition of lying” to determine. In interpreting allegedly
defamatory statements, our courts construe the meaning of statements “as ordinary people would
understand” them. Renwick v. News and Observer
Pub. Co., 310 N.C. 312, 319, 312 S.E.2d 405, 409
(1984). In ordinary usage, “liar” means “a person who
tells lies,” and “lie” means, inter alia, “an assertion of
something known or believed by the speaker to be untrue with intent to deceive.” See Merriam-Webster’s

73a
Collegiate Dictionary 716, 717 (11th Ed. 2003). Although Mr. Hix is an employee of DHBC, there is no
indication that there is a special “definition of lying”
unique to DHBC. Therefore, I would hold courts are
not barred from determining a claim based on the alleged statement by Mr. Hix that Mr. Lippard is a liar.
Second, the majority argues that “you and other
people like you are believing him instead of Scripture”
means that “we would need to inquire into ... when to
believe scripture, and how scripture determines whom
to believe[,]” to determine the truth or falsity of the
claim that Mr. Lippard is a liar. However, courts
would only need to determine whether Mr. Lippard
knowingly made factually untrue statements with the
intent to deceive or not, an inquiry which does not require interpreting or weighing church doctrine. I
would hold the second phrase does not sufficiently allege a defamation claim against Mr. Lippard because
it is a statement of opinion and not fact and does not
target Mr. Lippard, but other unnamed churchgoers.
Assuming the alleged statement is capable of verification and directed against Mr. Lippard, I would hold
considering the particular implied claim that Mr. Lippard is not following scripture is barred by the
ecclesiastical entanglement doctrine, as courts cannot
determine whether Mr. Lippard is contravening scripture without inquiring into what scripture requires.
That this claim would be barred does not affect the
alleged statement that Mr. Lippard is a liar. In a footnote, the majority argues that “[w]e cannot separate
the 23 December 2012 statement into two parts and
must read it as a whole because it is a complete sentence without a comma that would indicate a

74a
compound sentence of thoughts.” I would not hold the
absence of a comma in a written allegation of an oral
statement is dispositive of its interpretation; rather,
because both conjuncts can stand alone as individual
sentences, they are independent clauses and each expresses a complete thought. But even taken as a
whole, in the alleged statement Mr. Hix still accuses
Mr. Lippard of being a liar, an allegation courts are
capable of determining the truth or falsity of which
without weighing church doctrine. Therefore, I would
hold the ecclesiastical entanglement doctrine cannot
bar Plaintiffs’ claim that Mr. Hix defamed Mr. Lippard by claiming he was a liar.
(2) 8 January 2013 Email by Mr. Hix to Mr. Brewer
Plaintiffs also allege defamation based on Mr.
Hix’s statement in a subsequent email to Mr. Brewer,
a choir member, stating: “Note also that there are verifiable facts and Biblical scriptures which [Plaintiffs]
are openly denying and defying. Those facts and scriptures still stand.” This statement, like the last by Mr.
Hix, mixes allegations that Plaintiffs are lying—
“there are verifiable facts ... which [Plaintiffs] are
openly denying ...”—with allegations that Plaintiffs
are contravening scriptural requirements—“there are
... Biblical scriptures which [Plaintiffs] are openly ...
defying.” At deposition, Mr. Hix said “[t]he facts that
the (sic) late and/or not showing up for worship services when we’re paying her to be on the schedule”
were the “verifiable facts” to which he was referring.
Here, as in the previous statement, I would hold that
courts are not barred from considering a defamation
claim based on the allegation that Plaintiffs are
“openly denying” “verifiable facts,” or lying. I would

75a
hold that determining the truth or falsity of whether
Plaintiffs were “openly denying” the “verifiable fact”
that Ms. Lippard was repeatedly late or not showing
up for worship services would not require courts to interpret or weigh church doctrine and courts are not
barred from making that limited inquiry.
(3) 16 January 2013 Letter by Mr. Holleman to Mr.
Brewer
Mr. Holleman sent a lengthy letter on 16 January
2013 to Mr. Brewer. Plaintiffs argue, among others,
five statements contained in the letter are defamatory. Defendants contend courts are barred from
considering each of these statements based on the ecclesiastical entanglement doctrine. While I concur
with the majority that courts are barred from considering four of the statements because they would
require courts to interpret or weigh church doctrine, I
disagree with the majority’s holding that courts are
barred from considering the following statement written by Mr. Holleman: “No doubt there are more
strategies against the church leadership playing out
tonight.” I would hold courts are not barred from considering this claim because determining the truth or
falsity of whether “there [were] more strategies
against the church leadership playing out” would not
require the interpretation or weighing of church doctrine. The letter stated in pertinent part:
[A]s far as I’m aware, every new conversation or controversy has been initiated
by [the Plaintiffs], or by those who have
been advocating for their position [as
opposed to the church leadership]. You

76a
yourself have attempted to engage me
in conversation at the church.... You
have written this letter and had it delivered to me, Bryan Sherrill, and Bill
Wooten. [Mr. Lippard] has confronted
[Mr. Hix] multiple times, and this very
day, I’ve met with Billy Lynch for
breakfast, whom [Mr. Lippard] had
confronted at Church with a copy of
[Mr. Hix’s] directives to [Ms. Lippard].
I’ve learned that [Mr. Lippard] has emailed [Mr. Hix] requesting an explanation for why he and [Ms. Lippard]
have not been returned to the solo rotation. And Bryan Sherrill indicates that
[Mr. Lippard] called him today attempting to “catch” me in some
mistake. These are just a few. No doubt
there are more strategies against the
church leadership playing out tonight.
In their brief, Plaintiffs argue this statement implies
“nefarious motives ascribed to Ms. Lippard by [Mr.]
Holleman.” The context of the statement makes clear
that “strategies” in this context means “a careful plan
or method” and “a clever stratagem,” here with a negative connotation. See Merriam-Webster’s Collegiate
Dictionary 1233 (11th Ed. 2003). Mr. Holleman is accusing Ms. Lippard of coordinating the meetings and
stirring dissension. The truth or falsity of the statement that “there [were] more strategies against the
church leadership playing out [that] night” could be
determined by a court without inquiring into religious
doctrine or practice, such as by determining whether

77a
Ms. Lippard asked or instructed others to communicate on her behalf or to actively oppose the action of
the church leadership. Therefore, I would hold the
claim is not barred by the ecclesiastical entanglement
doctrine.
Although the majority concedes that this statement “does not directly [involve] scripture” it
nevertheless argues that “it does involve other ecclesiastical matters.” However, the majority does not rely
on the definition of “ecclesiastical matter” adopted by
our Supreme Court. It does not argue that this is a
matter “which concerns ... the adoption and enforcement within a religious association of needful laws
and regulations for the government of membership[,]”
nor that it concerns “the power of excluding from such
associations those deemed unworthy of membership
by the legally constituted authorities of the church ....”
Piner, 267 N.C. at 77, 147 S.E.2d at 583. The Plaintiffs’ claim that this statement is defamatory is
neither.
Instead, the majority asserts that “[p]lainly, this
controversy and ongoing dispute with the Plaintiffs is
a matter of DHBC’s internal membership, organization, governance, discipline, and degree of control
between members” and that “[w]e cannot decide the
rightness or wrongness of this statement by a pastor
communicating with his flock.” “[B]ut,” contrary to the
majority’s argument, “the courts do have jurisdiction,
as to civil, contract[,] and property rights which are
involved in, or arise from, a church controversy.”
Creech, 256 N.C. at 140, 123 S.E.2d at 627 (emphasis
added) (quoting Reid, 241 N.C. 201, 85 S.E.2d 114).
An act that would otherwise give rise to an actionable

78a
tort claim is not immunized merely because it arose in
the context of a communication between a pastor and
a churchgoer where neutral principles of law could be
applied to resolve the claim. See Smith, 128 N.C. App.
at 495, 495 S.E.2d at 398 (concluding that a holding
“that a religious body must be held free from any responsibility for wholly predictable and foreseeable
injurious consequences of personnel decisions, although such decisions incorporate no theological or
dogmatic tenets—would go beyond First Amendment
protection and cloak such bodies with an exclusive immunity greater than that required for the
preservation of the principles constitutionally safeguarded.” (internal citation omitted)); accord Bigelow,
247 N.C. App. at 411, 786 S.E.2d at 366 (holding “unsupported assertion” that First Amendment
“immunizes, without exception, a religious institution
from liability arising out of a contract between the religious institution and its ministerial employees ...
cannot be reconciled with Smith.”). Contrary to the
majority’s argument, resolving this claim does not require courts to determine the “rightness or
wrongness” of the pastor’s statement; resolving the
claim merely requires that courts determine the truth
or falsity of it. That particular question “does not directly [involve] scripture,” as the majority concedes,
and would not require courts to interpret or weigh
church doctrine. Therefore, I would hold it can be resolved by the application of neutral principles of law
and is not barred by the ecclesiastical entanglement
doctrine.

79a
(4) 6 April 2013 Email by Mr. Holleman to Mr.
Brewer
Finally, the Plaintiffs also argue that the following statement in the 6 April 2013 email to Mr. Brewer
was defamatory:
There were several there the Wednesday night that [Mr. Lippard], with [Ms.
Lippard] behind him, blocked [Mr.
Hix’s] exit from the music room and
was aggressively going after [Mr. Hix],
pointing his finger in [Mr. Hix’s] face,
an action I recently learned was illegal
and could have very well been reported
as a crime.
Determining the truth or falsity of this allegation of
the commission of an allegedly criminal act would not
require courts to interpret or weigh church doctrine
any more than the same accusation from any other
person based on any other crime would. The statement does not allege that Plaintiffs violated an
ecclesiastical law, which would require such interpretation or weighing of doctrine. Rather, determining
the truth or falsity of this statement merely requires
courts to determine whether or not Mr. Lippard in fact
“blocked [Mr. Hix’s] exit from the music room and [
]aggressively [went] after [Mr. Hix], pointing his finger in [Mr. Hix’s] face.” Therefore, I would hold this
claim could be resolved based on the application of
neutral principles of law and is not barred by the ecclesiastical entanglement doctrine.
The majority argues deciding this particular claim
is indistinguishable from Harris because “we would be

80a
forced to determine whether the statement at issue is
proper in light of DHBC’s doctrine and practice regarding membership and conduct.” This is a
misreading of Harris. In Harris, the reason the court
would have had to inquire into whether expenditures
made by the church leadership were “proper” to resolve the claim was because the cause of action the
plaintiffs alleged was breach of fiduciary duty, and the
only theory alleged by the plaintiffs for the specific element of breach of fiduciary duty was that the
defendants “improperly us[ed] church funds, which
constitutes conversion.” Harris, 361 N.C. at 273, 643
S.E.2d at 572. Therefore, determining whether the
church leadership’s challenged action was proper was
an essential issue to the claim before the court. Here,
in contrast, the issue is whether Mr. Holleman’s statement about Plaintiffs was true or false; the court need
not determine whether this statement or Mr. Holleman’s actions were “proper” or consider “how
[DHBC] should react to what it considers improper
conduct” to resolve the claim.
I would hold that Plaintiffs’ claims based on these
statements are not barred by the ecclesiastical entanglement doctrine because courts could evaluate the
specific elements of each of these claims, including the
falsity of the alleged statement, without interpreting
or weighing church doctrine. Therefore, “the First
Amendment is not implicated and neutral principles
of law are properly applied to adjudicate the claim[s].”
Smith, 128 N.C. App. at 494, 495 S.E.2d at 398; see
Harris, 361 N.C. at 273-74, 643 S.E.2d at 571 (holding
claims barred by ecclesiastical entanglement doctrine

81a
“[b]ecause no neutral principles of law exist to resolve
plaintiffs’ claims.”).
D. Substantive Defamation Claims
Although I concur with the majority that the ecclesiastical entanglement doctrine bars courts from
analyzing most of Plaintiffs’ claims, and I dissent and
would hold that four claims are not barred, there remain other issues to resolve. In granting summary
judgment to Defendants, the trial court also held (1)
“[a]s a matter of law, none of the Defendants’ statements are defamatory per se” and (2) “Plaintiffs did
not provide any evidentiary forecast that they suffered special damages because of any of Defendants’
allegedly defamatory per quod statements.” On appeal, Plaintiffs argue that they “have met all the
elements of defamation cases [ (sic) ] whether per se,
or per quod.” I disagree, and I would hold that, for the
claims that I believe are not barred by the ecclesiastical entanglement doctrine, Plaintiffs have failed to
show the claims constitute libel or slander per se or
per quod.
“Three classes of libel are recognized under North
Carolina law.” Renwick, 310 N.C. at 316, 312 S.E.2d
at 408.
They are: (1) publications obviously defamatory which are called libel per se;
(2) publications susceptible of two interpretations
one
of
which
is
defamatory and the other not; and (3)
publications not obviously defamatory
but when considered with innuendo,

82a
colloquium, and explanatory circumstances become libelous, which are
termed libels per quod.8
Id. at 316, 312 S.E.2d at 408 (quoting Arnold v.
Sharpe, 296 N.C. 533, 537, 251 S.E.2d 452, 455
(1979)).
Libel per se is a publication which,
when considered alone without explanatory circumstances: (1) charges that a
person has committed an infamous
crime; (2) charges a person with having
an infectious disease; (3) tends to impeach a person in that person’s trade or
profession; or (4) otherwise tends to
subject one to ridicule, contempt or disgrace.
Skinner v. Reynolds, 237 N.C. App. 150, 152, 764
S.E.2d 652, 655 (2014) (citations omitted) (emphasis
omitted).
Further: [ ] Defamatory words to be libelous per se must be susceptible of but
one meaning and of such nature that
the court can presume as a matter of
law that they tend to disgrace and degrade the party or hold him up to public
hatred, contempt or ridicule, or cause

In contrast, slander—an “oral defamatory utterance[ ]”—is only
actionable per se or per quod, not as a publication susceptible of
two interpretations. Penner v. Elliott, 225 N.C. 33, 34, 33 S.E.2d
124, 125 (1945).
8

83a
him to be shunned and avoided. Although someone cannot preface an
otherwise defamatory statement with
‘in my opinion’ and claim immunity
from liability, a pure expression of opinion is protected because it fails to assert
actual fact. This Court considers how
the alleged defamatory publication
would have been understood by an average reader. In addition, the alleged
defamatory statements must be construed only in the context of the
document in which they are contained,
stripped of all insinuations, innuendo,
colloquium and explanatory circumstances. The articles must be
defamatory on its face within the four
corners thereof.
Id. at 152-53, 764 S.E.2d at 655 (internal citations and
quotations omitted) (emphasis omitted).
In their brief, Plaintiffs do not identify which of
the dozens of allegedly defamatory statements they
cite are defamatory per se. Upon my review of the record and the briefs, the only statement not barred by
the ecclesiastical entanglement doctrine that Plaintiffs might colorably argue was libel per se was Mr.
Holleman’s description of Plaintiffs’ alleged behavior
in the 6 April email to Mr. Brewer, which Mr. Holleman characterized as “illegal” and “could very well

84a
have been reported as a crime.”9 There is a question
as to whether the behavior alleged—“block[ing] [Mr.
Hix’s] exit from the music room,” “aggressively going
after [Mr. Hix],” and “pointing his finger in [Mr. Hix’s]
face”—constitutes an “infamous crime.”
“At common law, ... an infamous crime is one
whose commission brings infamy upon a convicted
person, rendering him unfit and incompetent to testify
as a witness, such crimes being treason, felony, and
crimen falsi.” Aycock v. Padgett, 134 N.C. App. 164,
166, 516 S.E.2d 907, 909 (1999) (citations omitted).
Under N.C. Gen. Stat. § 14-39 (2017), the felony of kidnapping includes an “unlawful[ ] confine[ment],
restrain[t], or remov[al] from one place to another [of]
any other person 16 years of age or over without the
consent of such person” for one of several enumerated
purposes. False imprisonment is a lesser included offense of kidnapping. State v. Pigott, 331 N.C. 199, 210,
415 S.E.2d 555, 562 (1992). “The difference between
kidnapping and the lesser included offense of false imprisonment is the purpose of the confinement,
restraint, or removal of another person: the offense is
kidnapping if the purpose of the restraint was to accomplish one of the purposes enumerated in the
kidnapping statute.” Id. at 210, 415 S.E.2d at 562 (citation omitted). False imprisonment was a
misdemeanor at common law and, as it was not superseded by N.C.G.S. § 14-39, remains so in North
Despite Plaintiffs’ repeated assertions, none of the statements
alleged “tend[ ] to subject [Plaintiffs] to ridicule, contempt, or disgrace” as a matter of law. Skinner, 237 N.C. App. at 152, 764
S.E.2d at 655.
9

85a
Carolina. See State v. Fulcher, 34 N.C. App. 233, 242,
237 S.E.2d 909, 915 (1977), affirmed by State v. Fulcher, 294 N.C. 503, 243 S.E.2d 338 (1978) (“The
common-law crime of false imprisonment, a general
misdemeanor, has not been superseded by the new
kidnapping statute because there may be an unlawful
restraint without the purposes specified in the statute.”).
The conduct Mr. Holleman alleges occurred, being
Mr. Holleman’s blocking of Mr. Hix in the music room
with his body, does not rise to the level of kidnapping
or false imprisonment, as there is nothing in the statement to indicate Mr. Hix was truly confined or
restrained. Even assuming, arguendo, that Mr. Hix
was confined against his will, there is no evidence in
the statement by Mr. Holleman that he claimed Plaintiffs acted with one of the specific purposes
enumerated in the kidnapping statute. See N.C.G.S.
§ 14-39. Therefore, at most, the conduct Mr. Holleman
describes would be false imprisonment. As it is only a
misdemeanor, not a felony, and not treason or a
crimen falsi, false imprisonment is not an “infamous
crime.” Therefore, the allegedly defamatory statement
in the 6 April email, like the rest of the statements
Plaintiffs allege were defamatory, is not libel per se.
Plaintiffs further contend the trial court erred in
granting Defendants’ motion for summary judgment
on the basis that Plaintiffs failed to “provide any evidentiary forecast that they suffered special damages
because of any of Defendants’ allegedly defamatory
per quod statements.” I disagree.

86a
Libel per quod may be asserted when a
publication is not obviously defamatory,
but
when
considered
in
conjunction with innuendo, colloquium,
and explanatory circumstances it becomes libelous. To state a claim for libel
per quod, a party must specifically allege and prove special damages as to
each plaintiff.
Skinner, 237 N.C. App. at 157, 764 S.E.2d at 657-58
(internal quotations and citations omitted). This
Court has distinguished special damages from general
damages as follows:
General damages are the natural and
necessary result of the wrong, are implied by law, and may be recovered
under a general allegation of damages.
But special damages, those which do
not necessarily result from the wrong,
must be pleaded, and the facts giving
rise to the special damages must be alleged so as to fairly inform the
defendant of the scope of plaintiff’s demand.
Griffin v. Holden, 180 N.C. App. 129, 138, 636 S.E.2d
298, 305 (2006) (citing Rodd v. W.H. King Drug Co.,
30 N.C. App. 564, 568, 228 S.E.2d 35, 38 (1976)). “Special damage, as that term is used in the law of
defamation means pecuniary loss, as distinguished
from humiliation.” Williams v. Rutherford Freight
Lines, Inc., 10 N.C. App. 384, 387, 179 S.E.2d 319, 322
(1971) (citing Penner v. Elliott, 225 N.C. 33, 33 S.E.2d

87a
124 (1945)) (additional citations omitted). Indeed,
“emotional distress and mental suffering are not alone
sufficient to establish a basis for relief in cases which
are actionable only per quod.” Id. at 390, 179 S.E.2d
at 324 (citations omitted). Of course, some pecuniary
damages may stem from mental anguish and humiliation, such as the cost of psychological treatment
attributable to the defamatory statement. See, e.g.,
Tallent v. Blake, 57 N.C. App. 249, 255, 291 S.E.2d
336, 340-41 (1982) (“Special damages include illness
sufficient to require medical care and expense.”);
Araya v. Deep Dive Media, LLC, 966 F. Supp. 2d 582,
599-600 (W.D.N.C. 2013) (holding that cost of treatment and psychological counseling for emotional
distress satisfied requirement for special damages in
libel per quod claim).
Furthermore, at summary judgment, a plaintiff
must “produce an evidentiary forecast to support a
prima facie showing of special damages to survive defendant’s motion for summary judgment on [a] claim
of libel per quod.” Griffin, 180 N.C. App. at 138, 636
S.E.2d at 305 (citing Renwick, 310 N.C. at 312, 312
S.E.2d at 408). Mere allegations and “pure speculation” are insufficient at this stage. Id. at 138-39, 636
S.E.2d at 305. In the present case, Plaintiffs claim
they have suffered “damages for injury to their reputation and mental anguish and humiliation,” in
addition to seeking punitive damages and “full reimbursement of their attorney’s fees.” Mr. Lippard also
claims that “his reputation as a builder home inspector and real estate agent has been tarnished as a
result of the publication of [the 28 November sermon]

88a
and the other defamatory remarks attributed to [Defendants] against [Mr. Lippard].”
Plaintiffs fail to meet their burden of producing a
forecast of evidence sufficient to make a prima facie
showing of special damages. Mental anguish and humiliation are not sufficient to satisfy the requirement
for special damages. See Williams, 10 N.C. App. at
387, 179 S.E.2d at 322. Rather, to survive a motion for
summary judgment, Plaintiffs must show “pecuniary
loss, as distinguished from humiliation.” Williams, 10
N.C. App at 387, 179 S.E.2d at 322. However, despite
their general allegation, Plaintiffs have failed to show
any particular pecuniary damages arising from the
mental anguish, emotional harm, and humiliation
they claim to have suffered, such as costs for therapy
or mental health care.
Mr. Lippard additionally claims that Defendants’
alleged statements have “tarnished” “his reputation
as a builder, home inspector[,] and real estate agent,”
and that his “yearly income from 2010 through 2016”
is “proof of pecuniary injury as a result of the defamation of [Defendants].” Mr. Lippard’s reported income
shows $13,804.00 for 2010, $31,169 for 2011,
$9,824.00 for 2012, and $18,008 for 2013, the year following the publication of the majority of the allegedly
defamatory statements at issue. Mr. Lippard has
failed to show how the allegedly defamatory statements resulted in pecuniary harm. Without more, any
connection between Plaintiffs’ income and Defendants’ statements, particularly those allegedly
defamatory statements which courts are not barred
from considering by the First Amendment, is “pure
speculation.” Griffin, 180 N.C. App. at 138-39, 636

89a
S.E.2d at 305. Plaintiffs have failed to show special
damages so as to warrant denial of Defendant’s motion for summary judgment on the libel and slander
per quod claims.
III. Conclusion
In the case of defamation claims, I would hold that
courts must evaluate the specific elements of the
claim, including the falsity of the alleged statement,
and determine whether “resolution of [the truth or falsity of the alleged statement] requires the court to
interpret or weigh church doctrine. If not, the First
Amendment is not implicated and neutral principles
of law are properly applied to adjudicate the claim.”
Smith, 128 N.C. App. at 494, 495 S.E.2d at 398. Based
on this analysis, I concur with the majority’s holding
for some of Plaintiffs’ claims that they are barred because resolving the claims requires courts to interpret
or weigh church doctrine.
For the four allegedly defamatory statements discussed above—Mr. Hix’s oral allegation that Mr.
Lippard is a liar and written allegation that Plaintiffs
denied “verifiable facts,” along with Mr. Holleman’s
statements that “strategies” were playing out against
church leadership and that Mr. Lippard allegedly
committed a crime—I disagree and would hold that
there is no need for the court to interpret or weigh
church doctrine in its adjudication of the truth or falsity of these claims.
[The majority’s] contrary holding—that
a religious body must be held free from
any responsibility for [allegedly defamatory statements,] although such

90a
[statements] incorporate no theological
or dogmatic tenets—[ ]go[es] beyond
First Amendment protection and
cloak[s] such bodies with an exclusive
immunity greater than that required
for the preservation of the principles
constitutionally safeguarded.
Smith, 128 N.C. App. at 495, 495 S.E.2d at 398 (citation omitted). Therefore, I dissent in part. For these
claims that I would hold are not barred by the ecclesiastical entanglement doctrine, I would nevertheless
hold that Plaintiffs have not shown sufficient evidence
for libel per se or special damages as required for libel
or slander per quod. Therefore, I concur in the majority’s judgment affirming the trial court’s grant of
summary judgment for Defendants.

91a
______________________________
APPENDIX B
________________________
STATE OF
NORTH CAROLINA
COUNTY OF IREDELL

IN THE GENERAL
COURT OF JUSTICE
SUPERIOR COURT
DIVISION
13-cvs-2701

KIM and BARRY
LIPPARD,
Plaintiffs,
v.
LARRY HOLLEMAN
and ALAN HIX,

[Filed Apr. 17, 2018]
ORDER

Defendants.
This matter came on to heard before the undersigned Judge Presiding in the Iredell County Civil
Superior Court on April 2, 2018, upon Defendants
Larry Holleman’s and Alan Hix’s Motion for Summary
Judgment under Rule 56 of the North Carolina Rules
of Civil Procedure. Plaintiffs Kim Lippard and Barry
Lippard were represented at the hearing by Attorney
Seth B. Weinshenker. Defendants were represented
by Attorney Bedford Cannon and by Attorney Seth J.
Kraus who is admitted pro hac vice to appear in this
matter.
The Court has fully considered the Plaintiffs’ Verified Complaint and incorporated exhibits in support

92a
of their Count One defamation claim, their verified
answers to interrogatories, their depositions, and the
exhibits submitted in support of their Opposition to
Defendants’ Motion for Summary Judgment, and the
arguments of counsel at the hearing. The forecast of
evidence presented by these documents show that
there is no genuine issue as to any material fact. Defendants therefore are entitled to a judgment as a
matter of law.
UNDISPUTED MATERIAL FACTS
1. This case involves a dispute over the assignment by the Diamond Hill Baptist Church’s
(“Church”) or “Diamond Hill”) Minister of Music Alan
Hix to Plaintiff Kim Lippard, the paid Church pianist,
to provide a vocal performance of a religious musical
work before the Church congregation.
2. Months after the initial assignment, Mr. Hix
assigned the same religious musical work, which Mrs.
Lippard had not yet performed, to another Church vocalist.
3. Mrs. Lippard became upset over the incident
and began to seek answers from Mr. Hix as to the alternate assignment.
4. Eventually, because of the disruption caused
by the conflict between the two Church staff members,
Defendant Larry Holleman, Pastor of the Church, began to meet with Mr. Hix, and with Mrs. Lippard and
her husband, “Mr. Lippard” to try to facilitate a biblical reconciliation between the three individuals
(“parties”).

93a
5. After several religious counseling sessions between the pastor and three parties, and between the
parties and the Church Board of Deacons and the
Church Personnel Committee, the Church leadership
recommended to the Church that the pianist be dismissed as Church pianist for failure to
unconditionally engage in the biblical reconciliation
process.
6. Church membership voted against the dismissal and Mrs. Lippard remained in her position until
she resigned eight months after the Church’s vote.
7. In December, 2013, Mr. and Mrs. Lippard
filed the instant action against the Church and Defendants.
8. Plaintiffs voluntarily dismissed Defendant Diamond Hill Baptist Church in May 2014, leaving
Larry Holleman and Alan Hix as the only two defendants.
9. The sole claim before this Court is Plaintiffs’
Count One Defamation claim against Defendants Holleman and Hix.
CONCLUSIONS OF LAW
1. Summary judgment is appropriate when “the
pleadings, depositions, answers to interrogatories,
and admissions of file, together with the affidavits, if
any, show that there is no genuine issue of material
fact and that any party is entitled to a judgment as a
matter of law.” N.C. R. Civ. P. 56(c). The party moving for summary judgment has the burden of proving
that no genuine issue of material fact exists. Lowe v.
Bradford, 305 N.C. 366, 369-70, 289 S.E. 2d 363, 366

94a
(1982). Once the moving party has submitted materials in support of the motion, however, the burden
shifts to the opposing party to produce evidence establishing that the motion should not be granted. Id. at
370, 289 S.E. 2d at 366.
2. Determining the truth or falsity of Defendants’ allegedly defamatory statements would require
the Court to interpret and or weigh church doctrine,
an inquiry prohibited by the First Amendment. “‘The
legal or temporal tribunals of the State have no jurisdiction over, and no concern with, purely ecclesiastical
questions and controversies.’ We have defined an ecclesiastical question as one involving ‘doctrine, creed,
or form of worship of the church, or the adoption and
enforcement within a religious association of needful
laws an regulations for the government of membership.’” Lippard, et al. v. Larry Holleman et al., 2017
N.C. App. LEXIS 349, *13-14, 798 S.E2d 812 (2017).1
(Citations omitted). Since inquiry into the falsity of
the claimed “defamatory statements” would cross the
ecclesiastical limitations prohibited by the First
Amendment, this Court is barred from entangling itself in the matters of ecclesiastical controversy raised
by Plaintiffs’ defamation claims against Defendants.
3. Plaintiffs failed to raise any forecast of evidence that Defendants made any of their statements
in their individual capacities. Therefore, Defendants
are entitled to judgment as a matter of law in their
individual capacities.
Pursuant to N.C. R. App. P. 30(e), this unpublished decision is
being cited as the law of this case.
1

95a
4. Plaintiffs’ voluntarily dismissed Defendants’
principal, Diamond Hill Baptist Church in 2014; Defendants are therefore entitled to judgment as a
matter of law in their representative capacities as
Lead Pastor and Minister of Music of Diamond Hill
Baptist Church. See, e.g., Satterfield v. McLellan
Stores, 215 N.C. 582, 2 S.E. 2d 709 (1939).
5. The question of whether any of Defendants’
statements are defamatory per se is a question of law.
See Ellis v. N. Star Co., 326 N.C. 219, 224, 388 S.E.2d
127, 130 (1990). In making this determination, the
court must consider the statement contextually, evaluating the words “within the four corners” of the
publication and interpreting the words “as ordinary
people would understand” them. Renwick v. News
and Observer Pub. Co. and Renwick v. Greensboro
Daily News, 310 N.C. 312, 318, (1984). As a matter of
law, none of the Defendants’ statements are defamatory per se.
6. Plaintiffs did not provide any evidentiary forecast that they suffered special damages because of any
of Defendants’ allegedly defamatory per quod statements. “To state a claim for libel per quod, a party
must specifically allege and prove special damages as
to each plaintiff.” Nguyen v. Taylor, 200 N.C. App.
387, 393, 684 S.E.2d 470, 475 (2009). At the summary
judgment stage of a proceeding, Plaintiffs must have
provided at least an evidentiary forecast of their special damages in order to state a claim for defamation
per quod. “[Plaintiff] would need to produce an evidentiary forecast to support a prima facie showing of
special damages to survive defendant’s motion for
summary judgment.” (Griffin v. Holden, 180 N.C.

96a
App. 129, 138, 636 S.E.2d 298, 305 (2006). Under
North Carolina defamation law, “special damage
means pecuniary loss, as distinguished from humiliation.” Stutts v. Duke Power, 47 N.C. App 76, 82, 266
S.E.2d 861, 865 (1980). Plaintiffs failed to raise any
evidentiary forecast of special damages tending to
support defamation per quod claim.
It is therefore ORDERED, ADJUDGED, AND
DECREED THAT:
Defendants’ Motion for Summary Judgment as to
all allegations regarding Plaintiffs’ Claim for Defamation is GRANTED.
SO ORDERED, this the 12 day of April, 2018.
/s/ Mark E. Klass
The Honorable Mark E. Klass
Superior Court Judge Presiding

97a
______________________________
APPENDIX C
________________________
An unpublished opinion of the North Carolina Court
of Appeals does not constitute controlling legal authority. Citation is disfavored, but may be permitted
in accordance with the provisions of Rule 30(e)(3) of
the North Carolina Rules of Appellate Procedure.
IN THE COURT OF APPEALS OF
NORTH CAROLINA
No. COA16-886
Filed: 2 May 2017
Iredell County, No. 13 CVS 2701
KIM AND BARRY LIPPARD, Plaintiffs,
v.
LARRY HOLLEMAN and ALAN HIX, Defendants.
Appeal by plaintiffs from order entered 5 April
2016 by Judge Martin B. McGee in Iredell County Superior Court. Heard in the Court of Appeals 22
February 2017.
Seth B. Weinshenker, P.A., by Seth B. Weinshenker
for Plaintiff-Appellants.
Gibbs & Associates Law Firm, LLC, by Seth J.
Krause (admitted pro hac vice) and E. Bedford
Cannon for Defendant-Appellees.

98a
HUNTER, JR., Robert N., Judge.
Kim (“Kim”) and Barry (“Barry”) Lippard (“Plaintiffs”) appeal the trial court’s 5 April 2016 order
dismissing with prejudice their defamation claim
against Larry Holleman (“Holleman”) and Alan Hix
(“Hix”) (“Defendants”). After de novo review, we vacate the 5 April 2016 order dismissing this action on
jurisdictional grounds and remand this matter for a
trial on the merits.
I. Facts and Background
On 16 December 2013, Plaintiffs, congregants of
the Diamond Hill Baptist Church (“DHBC”) filed a
verified complaint in Iredell County Superior Court
alleging DHBC, along with Holleman, the Senior Minister, and Hix, the Minister of Music, publically
defamed Plaintiffs to their church community. Plaintiffs also alleged DHBC engaged in ultra vires activity
when its Board of Deacons and Personnel Committee
voted to recommend Kim be dismissed as church pianist.
According to the complaint, Kim served as the
church pianist and vocalist for thirty-four years, while
Barry served as a deacon and as a member of several
church committees. Although Kim and Hix had
worked together for many years, their relationship
was strained following a 2010 confrontation involving
Kim’s need for greater flexibility in her schedule. On
8 August 2012, after a rehearsal for a Sunday morning
service, Kim and Hix began to argue about the assignment of a solo. Seeking to resolve the conflict,
Holleman held a meeting between Plaintiffs and Hix

99a
in which he attempted an unsuccessful mediation.
Holleman subsequently asked the church’s board of
deacons to recommend dismissing Kim from her position as church pianist. The board of deacons
recommended dismissal, but stayed its recommendation pending a sustained attempt at reconciliation
based on “biblical passages.”
From the end of August until November 2012,
Holleman counseled Kim and Hix, urging them to
“commit unconditionally to the Biblically described
pathway to reconciliation[.]” After initial progress, the
process broke down, as Holleman claimed Kim failed
to fully commit to an examination of her character.
After reconciliation failed, the board of deacons
again recommended Kim be dismissed as church pianist. The matter was referred to the church’s
personnel committee. The personnel committee approved the recommendation and sent the issue to the
entire congregation for a vote, pursuant to DHBC’s
constitution and by-laws. On 13 November 2012, Holleman sent Kim a letter accusing her of failing to take
responsibility for her part in the breakdown of the reconciliation process.
Holleman called a meeting of the congregation on
28 November 2012 to vote on Kim’s dismissal. At the
meeting, he “delivered a nearly two (2) hour lecture to
the Church congregation in which he published untrue statements regarding the Lippards by reading a
twenty page diatribe.” Holleman subsequently made
written copies of the lecture (“the November 28 letter”) available to the congregation. In the lecture,
Holleman

100a
misrepresented that [Kim] was unwilling to engage in reconciliation and the
attempts at reconciliation between Hix,
[Kim], and Holleman were unsuccessful
and falsely depicted events involving
[Plaintiffs], including that [Kim] had
been involved with disputes with the
Church for more than two years, that
[Kim] maliciously slandered another
choir member, and that [Kim] accused
Hix of lying and intentionally hiding
her sheet music[.]
Following the meeting, Holleman provided each member with a ballot which asked them to vote on Kim’s
dismissal after considering three questions:
1. Have Kim’s actions been clearly
demonstrated to her and to you as
wrong according to the Scriptures?
2. Have the efforts of the Deacons, Personnel Committee and Pastor to restore
her into the fellowship of the Body of
Christ been sufficiently exercised with
careful deliberation, patience, and graciousness, and according to the
Scriptures?
3. Has Kim responded positively as instructed by the Scriptures?
The congregation voted to keep Kim as church pianist.
Unsatisfied by the result, Defendants continued to
discuss Plaintiffs’ character and alleged failings with
the other congregants.

101a
After the vote, Holleman sought to ban Plaintiffs
from worship services and to terminate their membership in the congregation. He also spoke with church
members about the matter, allegedly telling one member Barry was a “liar” not to be believed “instead of
Scripture.” Holleman and Hix both exchanged emails
with concerned parishioners regarding Kim’s status
at DHBC, repeating the allegations from the November 28 letter. In one of these emails, Holleman accused
Barry of physically preventing Hix from leaving the
church’s music room and “aggressively going after”
Hix following a meeting, characterizing this behavior
as “illegal.”
On 5 February 2014, Defendants filed an answer
and motion to dismiss under North Carolina Rule of
Civil Procedure 12(b)(1). Defendants argued the trial
court lacked subject matter jurisdiction because
Plaintiff’s entire complaint involved an “ecclesiastical
or ecumenical question of church governance.” On 18
March 2014, Plaintiffs voluntarily dismissed all
causes of action against DHBC. On 24 March 2014,
Judge Anna Mills Wagoner heard Defendants’ Rule
12(b)(1) motion to dismiss. Immediately before the
hearing, Plaintiffs’ counsel withdrew, and Plaintiffs
appeared at the hearing pro se. Judge Wagoner summarily denied the motion to dismiss in a written order
following the hearing. On 29 September 2014, Judge
Theodore Royster dismissed the remaining ultra vires
claims insofar as they applied to Holleman and Hix,
leaving the defamation claims for resolution.
While the 2013 claims were still active, Plaintiffs
hired a new attorney who filed a new civil action (15-

102a
CVS-606) containing nearly identical theories for relief based upon defamation, ultra vires corporate
action, and negligent supervision against DHBC, Holleman, and Hix. Because the record does not contain
the second complaint, we are unable to determine
whether the second complaint involved identical facts.
Defendants subsequently filed a motion to dismiss
in 15-CVS-606, which was heard before Judge Michael Duncan. At the hearing, Defendants argued all
three claims brought in 15-CVS-606 should be dismissed for lack of subject matter jurisdiction.
Defendants also made an oral motion to dismiss the
defamation claim in the 2013 case. While the trial
court granted the motion to dismiss in 15-CVS-606,
holding all three claims were barred by lack of subject
matter jurisdiction, the court refused to rule on the
oral motion to dismiss the 2013 case, finding “Judge
Anna Mills Wagoner previously ruled on that issue as
a matter of law[.]”1
On 16 February 2016, Holleman and Hix filed another motion to dismiss in the instant case under Rule
12(b)(1), again contending the trial court lacked subject matter jurisdiction over an “ecclesiastical or
ecumenical question[ ] of church governance....” Judge
Martin B. McGee heard the motion on 21 March 2016.
[R. Defendants advanced two arguments for overruling Judge Wagoner’s order. First, they argued the
1

We note at this point in the narrative, where two different superior court
judges, examining the same facts, came to diametrically opposed conclusions, neither party sought to appeal any of these rulings to the Court of
Appeals. We also note no party has yet appealed either Judge Wagoner’s
or Judge Duncan’s orders to this Court.

103a
order was vulnerable because of circumstances surrounding the first hearing: Plaintiffs’ counsel
withdrew on the day of the original motion to dismiss,
forcing them to appear pro se at the hearing, and
Plaintiffs voluntarily dismissed DHBC as a defendant
only two days prior to the hearing. Second, Defendants argued the trial court had the authority to hear
challenges to its jurisdiction at any time, regardless of
whether the issue had been raised previously.
In an order filed 5 April 2016, Judge McGee
granted Defendant’s motion to dismiss, holding the issue of subject matter jurisdiction was an exception to
the general rule against one superior court judge overruling another. Further, Judge McGee found it was
“not entirely clear if Judge Wagoner was leaving the
issue of subject matter jurisdiction open to be reconsidered by denying the motion to dismiss ‘at this point’
given the circumstances of the hearing[.]” With respect to Plaintiff’s defamation claim, the court held
“[a]ll of the alleged defamatory statements involve internal communication between leaders of the church
and church members regarding matters of church governance, leadership, and membership.” Plaintiffs filed
a notice of appeal of Judge McGee’s order on 5 May
2016.
II. Jurisdiction
Plaintiffs appeal the order of a superior court in a
civil action that disposes of all the issues as to all parties. As a result, jurisdiction is proper in this Court
under N.C. Gen. Stat. §§ 1-277(a) and 7A-27(b) (2015).

104a
III. Standard of Review
“We review Rule 12(b)(1) motions to dismiss for
lack of subject matter jurisdiction de novo and may
consider matters outside the pleadings.” Harris v.
Matthews, 361 N.C. 265, 271, 643 S.E.2d 566, 570
(2007). In our review, “we view the allegations as true
and the supporting record in the light most favorable
to the non-moving party.” Mangum v. Raleigh Bd. of
Adjustment, 362 N.C. 640, 644, 669 S.E.2d 279, 283
(2008).
IV. Analysis
Although the parties have not raised a key jurisdictional issue, we address ex mero motu whether
Judge McGee’s order dismissing the case for lack of
subject matter jurisdiction violated the “well-established rule” that no appeal lies from one superior court
judge to another. Calloway v. Ford Motor Co., 281
N.C. 496, 501, 189 S.E.2d 484, 488 (1972).
“The power of one judge of the superior court is
equal to and coordinate with that of another.” Michigan Nat’l Bank v. Hanner, 268 N.C. 668, 670, 151
S.E.2d 579, 580 (1960). Thus, “one Superior Court
judge may not correct another’s errors of law; and ...
ordinarily one judge may not modify, overrule, or
change the judgment of another Superior Court judge
previously made in the same action.” Calloway, 281
N.C. at 501, 189 S.E.2d at 488.
There are two narrow exceptions to this rule. The
Calloway rule does not apply where “the original order was (1) interlocutory, (2) discretionary, and (3)
there has been a substantial change of circumstances

105a
since the entry of the prior order.” First Fin. Ins. Co.
v. Commercial Coverage Inc., 154 N.C. App. 504, 507,
572 S.E.2d 259, 262 (2002). A “substantial change” occurs only if the party seeking modification or reversal
can show there has been an “intervention of new facts
which bear upon the propriety” of the original order.
Id. at 507, 572 S.E.2d at 262 (quoting Calloway, 281
N.C. at 505, 189 S.E.2d at 490).
Absent a showing of changed circumstances, a superior court judge may only overrule an earlier order
if the first judge’s order was either void or voidable.
State v. Sams, 317 N.C. 230, 235, 345 S.E.2d 179, 183
(1986). “An order is void ab initio only when it is issued by a court that does not have jurisdiction.” Id. at
235, 345 S.E.2d at 183.
First, we note Judge McGee erroneously found the
issue of subject matter jurisdiction is itself an independent exception to the Calloway rule, relying on
this Court’s decisions in McCoy v. City of Charlotte,
No. COA 12-219, 2012 WL 4510874 (N.C. Ct. App. Oct.
2, 2012) (unpublished),2 and McAllister v. Cone Mills
Corp., 88 N.C. App. 577, 364 S.E.2d 186 (1988). Subject matter jurisdiction is the source of the court’s
authority to adjudicate the controversy before it.
Haker-Volkening v. Haker, 143 N.C. App. 688, 693,
547 S.E.2d 127, 130 (2001). Because jurisdiction is a
necessary condition for a court’s authority, the courts

2

We note for the record that “[a]n unpublished decision of the North Carolina Court of Appeals does not constitute controlling legal authority.
Accordingly, citation of unpublished opinions ... is disfavored.” N.C.R.
App. P. 30(e)(3) (2016).

106a
have the “inherent judicial power to inquire into, hear
and determine questions of [their] own jurisdiction....”
and may exercise that power at any point during a
case, even at the Supreme Court. Lemmerman v. A.T.
Williams Oil Co., 318 N.C. 577, 580, 350 S.E.2d 83,
85-86 (1986).
Despite that inherent authority, both cases Judge
McGee relied upon are distinguishable and do not support his interpretation. In McCoy, the trial court
initially denied the defendant’s motion to dismiss for
lack of subject matter jurisdiction. Id. at *2-3. The
plaintiff then entered a voluntary dismissal without
prejudice, before filing a new complaint raising several new causes of action. Id. at *3. We held the judge
hearing the new case was not legally bound by the
first judge’s denial, and upheld its order dismissing
the new complaint. Id. at *9.
In McAllister, the trial court denied the defendant’s motion to dismiss, in which the defendant
argued the plaintiff’s claims were subject to the Workers’ Compensation Act and should be brought before
the Industrial Commission. McAllister, 88 N.C. App.
at 578, 364 S.E.2d at 187. After discovery, another
trial court judge granted summary judgment in favor
of the defendant, holding the court indeed lacked subject matter jurisdiction. Id. at 579, 364 S.E.2d at 188.
We affirmed, holding that the issue of subject matter
jurisdiction was interlocutory and not immediately
appealable, but instead could be raised at any time
during the case. Id. at 579, 364 S.E.2d at 188.
While these cases indeed reflect upon the issue of
when one judge’s ruling may be overruled by another,

107a
they are procedurally and substantively distinct from
the case at bar. Unlike the defendant in McCoy, who
brought motions to dismiss in two separate actions, or
the defendant in McAllister who merely prevailed on
summary judgment after losing its motion to dismiss,
Defendants in the instant case brought two motions to
dismiss before two separate judges in the same case.
Further, as the McAllister court recognized, the
denial of a motion to dismiss for lack of subject matter
jurisdiction is usually an unreviewable interlocutory
order. Teachy v. Coble Dairies, Inc., 306 N.C. 324, 326,
293 S.E.2d 182, 183 (1982). However, the North Carolina Supreme Court has since held there is appellate
jurisdiction over a trial court’s order denying a motion
to dismiss brought by a religious entity seeking to invoke the First Amendment’s prohibition against civil
encroachment in ecclesiastical matters. Harris, 361
N.C. at 270-71, 643 S.E.2d at 569-70. Unlike other
challenges to the court’s subject matter jurisdiction,
the “loss of First Amendment freedoms, for even minimal periods of time, unquestionably constitutes
irreparable injury[,]” and thus affects a substantial
right. Id. at 270, 643 S.E.2d at 570 (citation omitted).
Therefore, rather than asking one superior court
judge to countermand one of his colleagues, Defendants were free to seek appellate review of Judge
Wagoner’s order.
Turning to the established bases for overruling an
existing order, we hold Judge Wagoner’s order was not
vulnerable to attack. First, as established above,

108a
while the order was interlocutory, it was subject to appellate review.3 Second, Judge Wagoner’s order was
not discretionary. Our courts have previously applied
the exception to the Calloway rule to purely discretionary rulings, such as class certification, Dublin v.
UCR, Inc, 115 N.C. App. 209, 444 S.E.2d 455 (1994),
motions to amend, Madry v. Madry, 106 N.C. App. 34,
415 S.E.2d 74 (1992), and motions to seal documents
in a domestic case, France v. France, 224 N.C. App.
570, 738 S.E.2d 180 (2012). Here, “[t]he issue of jurisdiction is basically one of law.” Burgess v. Gibbs, 262
N.C. 462, 465, 137 S.E.2d 806, 808 (1964) (internal citation omitted). Because Judge Wagoner’s order
decided a question of law, her decision was not discretionary, and falls outside the scope of the narrow
exception to the Calloway rule.
Finally, Defendants failed to carry their burden of
showing changed circumstances. Far from showing
the existence of “new facts” sufficient to cast doubt on
the legal propriety of Judge Wagoner’s order, Defendant’s assertions to Judge McGee on this point were
largely limited to circumstances existing prior to and
at the time of the first hearing before Judge Wagoner.
First Fin. Ins. Co., 154 N.C. App. at 507, 572 S.E.2d
at 262. At no point during the hearing before Judge
McGee did Defendants show that the voluntary dismissal entered in favor of DHBC or Plaintiffs’ loss of
counsel prior to the first hearing had any effect on the

3

We note that Judge Wagoner’s order was not the subject of an appeal
when entered, nor is the subject of a cross appeal. Therefore, the merits of
that order are not technically before this Court.

109a
case following entry of Judge Wagoner’s order. Similarly, although Defendants referenced the dismissal of
identical claims in 15-CVS-606, the trial court’s order
in that case, refusing to rule on matters in the instant
case precisely because Judge Wagoner had already
ruled on the issue, cannot possibly create changed circumstances sufficient to overturn Judge Wagoner’s
ruling in another forum.
In order to show Judge Wagoner’s order was not
void ab initio, and because the trial court may need
further guidance on the issue of First Amendment applications in subsequently resolving this issue, we will
briefly discuss the subject matter jurisdiction issue.
The First Amendment’s Establishment and Free
Exercise Clauses prohibit Congress from enacting
“any law respecting an establishment of religion, or
prohibiting the free exercise thereof.” U.S. Const.
amend. I. This prohibition extends to the judicial
branch, because “(1) by hearing religious disputes, a
civil court could influence associational conduct,
thereby chilling the free exercise of religious beliefs;
and (2) by entering into a religious controversy and
putting the enforcement power of the state behind a
particular religious faction, a civil court risks establishing a religion.” Doe v. Diocese of Raleigh, ___ N.C.
App. ____, ____, 776 S.E.2d 29, 35 (2015) (internal citations and quotation marks omitted). As a result, the
courts must avoid inquiries into church doctrine that
risk “entangle[ment] in essentially religious controversies.” Serbian E. Orthodox Diocese v. Milivojevich,
426 U.S. 696, 709, 49 L.Ed. 2d 151, 163 (1976).

110a
Thus, the extent to which the courts may intrude
into matters of internal church policy is severely circumscribed. W. Conf. of Original Free Will Baptists v.
Creech, 256 N.C. 128, 140-41, 123 S.E.2d 619, 627
(1962). “The legal or temporal tribunals of the State
have no jurisdiction over, and no concern with, purely
ecclesiastical questions and controversies....” Reid v.
Johnston, 241 N.C. 201, 204, 85 S.E.2d 114, 117
(1954). We have defined an ecclesiastical question as
one involving “doctrine, creed, or form of worship of
the church, or the adoption and enforcement within a
religious association of needful laws and regulations
for the government of membership[.]” E. Conf. of Original Free Will Baptists v. Piner, 267 N.C. 74, 77, 147
S.E.2d 581, 583 (1966).
Nonetheless, the First Amendment is not an absolute shield to liability. Courts may adjudicate a case
involving a religious organization if the dispute may
be settled by application of “neutral principles of law”
that are equally applied in all such disputes. Presbyterian Church in United States v. Mary Elizabeth Blue
Hull Mem’l Presbyterian Church, 393 U.S. 440, 449,
21 L.Ed. 2d 658, 665 (1979). See also Harris, 361 N.C.
at 271-72, 643 S.E.2d at 570-71. In determining
whether the courts have jurisdiction, “[t]he dispositive
question is whether resolution of the legal claim requires the court to interpret or weigh church
doctrine.” Smith v. Privette, 128 N.C. App. 490, 494,
495 S.E.2d 395, 397-98.
Our courts have not yet considered whether a
statement issued by a religious leader or made from
the pulpit creates an actionable defamation claim capable of adjudication under neutral principles of tort

111a
law. However, several federal courts and out-of-state
courts have confronted this question and concluded
the First Amendment does not create a categorical bar
to such defamation claims. See, e.g., Hutchison v.
Thomas, 789 F.2d 392 (6th Cir. 1986); Kavanagh v.
Zwilling, 997 F. Supp. 2d 241 (S.D.N.Y. 2014); Klagsbrun v. Va’ad Harabonim of Greater Monsey, 53 F.
Supp. 2d 732 (D.N.J. 1999); Downs v. Roman Catholic
Archbishop, 683 A.2d 808 (Md. Ct. Spec. App. 1996);
Black v. Snyder, 471 N.W.2d 715 (Minn. Ct. App.
1991).
Rather, the court must review the specific elements of the plaintiff’s claim and determine whether
and to what extent the dispute is founded on doctrinal
matters. See, e.g. Kavanagh, 997 F. Supp. 2d at 25051; Klagsbrun, 53 F. Supp. 2d at 739. If such consideration reveals a “purely secular dispute between
third parties and a particular defendant, albeit a religiously affiliated organization,” the First Amendment
will not bar jurisdiction. Klagsbrun, 53 F. Supp. 2d at
739 (quoting General Council on Fin. & Admin. of
United Methodist Church v. Cal. Superior Court, 439
U.S. 1369, 1373, 58 L.Ed. 2d 77, 82 (1978)). If the court
“would have to determine the truth of the defendants’
statements ... and, in doing so, would examine and
weigh competing views of church doctrine, the result
is entanglement in a matter of ecclesiastical concern
that is barred by the First Amendment.” Kavanagh,
997 F. Supp. 2d at 250 (internal citations and quotation marks omitted).
This line between an ecclesiastical and a secular
dispute can be difficult to discern, and requires an intensive inquiry into the relevant facts and applicable

112a
laws. Defamation and religious questions are legally
contextual. Libel may sometimes cloak itself in religious terminology, but that would not prevent civil
adjudication of a claim.
We need not decide at this stage of the pleadings
whether Defendants’ statements regarding the Plaintiffs are justiciable because we hold that some of the
statements can be read contextually as libel per se.
For example, Holleman’s accusation of criminal conduct can be construed as libel per se against Barry.
Thus, we conclude Judge Wagoner’s order was not
void ab initio.
At this stage of the pleadings we consider the allegations made in the light most favorable to the
Plaintiffs and hold it is premature to dismiss the
claims under Rule 12(b)(1). We do so for two reasons.
First, Judge Wagoner’s order is not before us on appeal or cross appeal. Second, we hold Judge McGee did
not have jurisdiction to overrule Judge Wagoner. Defendants could have appealed Judge Wagoner’s order
had they felt the order was imperfect but they did not
for reasons satisfactory to themselves.
Further, the complaint contains sufficient facts to
state a claim for defamation which is outside the ecclesiastical boundary line of the First Amendment.
The trial court can revisit this issue of whether or not
the ecclesiastical boundary line is violated if and when
the parties come forward with a forecast of evidence
to support a motion for summary judgment.
As a result, the 5 April 2016 order dismissing the
claim for lack of subject matter jurisdiction is vacated

113a
and the case is remanded to the trial court for further
proceedings not inconsistent with this opinion.
VACATED AND REMANDED.
Judges CALABRIA and BERGER concur.
Report per Rule 30(e).

114a
______________________________
APPENDIX D
________________________
STATE OF
NORTH CAROLINA
COUNTY OF IREDELL

IN THE GENERAL
COURT OF JUSTICE
SUPERIOR COURT
DIVISION
13-CVS-2701

KIM AND BARRY
LIPPARD,
Plaintiffs,
[Filed Apr. 5, 2016]

v.
LARRY HOLLEMAN
and ALAN HIX,
Defendants.
ORDER

THIS MATTER came on to be heard before the
Honorable Martin B. McGee, Judge Presiding, at the
March 21, 2016, Civil Term of the Iredell County Superior Court. This matter came on for hearing upon
the written motion of Defendants Larry Holleman
(“Mr. Holleman”) and Alan Hix (“Mr. Hix”) for entry
of an Order dismissing Plaintiffs’ Complaint in Case
No. 13-CVS-2701 as to Mr. Holleman and Mr. Hix.
Plaintiffs were represented in the hearing by their attorney, Seth B. Weinshenker. Defendants Holleman
and Hix were represented in the hearing by their attorneys, E. Bedford Cannon and Seth J. Kraus.

115a
The Court having reviewed the briefs submitted
by counsel and the appropriate case law and having
heard oral arguments;
In Case No. 13-CVS-2701 as to Defendants Larry
Holleman and Alan Hix:
1. The Court finds:
a. The issue of subject matter jurisdiction is
an exception to the general rule that one
superior court judge cannot overrule another superior court judge. McCory v. City
of Charlotte, 223 N.C. App. 101 (2012);
McAllister v. Cone Mills Corp., 88 N.C.
App. 577 (1988),
b. It is not entirely clear if Judge Wagoner
was leaving the issue of subject matter jurisdiction open to be reconsidered by
denying the motion to dismiss “at this
point” given the circumstances of the
hearing,
c.

In considering the motion to dismiss, the
Court has assumed, without deciding,
that all of the allegations in the Verified
Complaint are true,

d. All of the alleged defamatory statements
involve internal communication between
leaders of the church and church members
regarding matters of church governance,
leadership and membership. Specifically,
the communication involves lectures and
sermons from the pulpit, what has taken
place during reconciliation within the

116a
church, the wording of absentee ballots regarding whether Mrs. Lippard would
remain the church’s pianist, a discussion
between the Minister of Music and a
church member regarding the choice between believing Mr. Lippard or Scripture,
an additional email between the Minister
of Music and another member regarding
the “events,” and other emails from the
Senior Pastor to members of the congregation, and
e.

The dispute centers on matters such as
counseling sessions “to promote reconciliation and an improved relations based on
biblical passages,” Mrs. Lippard’s “alleged
broken relationship with God,” whether
Mrs. Lippard is “spreading dissention in
the church, and acting contrary to biblical
tenets,” Mrs. Lippard’s alleged “failures,”
and the alleged choice between believing
Mr. Lippard or Scripture.

NOW, THEREFORE, IT IS ORDERED, ADJUDGED
AND DECREED:
2. The First Amendment deprives the Court of
jurisdiction to resolve this dispute involving
internal communications between church
leadership and members of the congregation
relating to issues of membership and music
leadership. Watson v. Jones, 80 U.S. (13
Wall), 679 (1871); W. Conference of Original
Free Will Baptist of N.C. v. Miles, 259 N.C. 1
(1963).

117a
3. The Court therefore ORDERS that Plaintiffs’
Count I of Verified Complaint is DISMISSED
with prejudice for lack of subject matter jurisdiction pursuant to Rule 12(b)(1) of the Rules
of Civil Procedure.
This May 5, 2016.
/s/ Martin B. McGee
Honorable Martin B. McGee,
Judge Presiding

118a
______________________________
APPENDIX E
________________________
STATE OF
NORTH CAROLINA
COUNTY OF IREDELL
KIM LIPPARD AND
BARRY LIPPARD,
Plaintiffs,
vs.

IN THE GENERAL
COURT OF JUSTICE
SUPERIOR COURT
DIVISION
13 CVS 2701

[Filed May 29, 2014]
ORDER

LARRY HOLLEMAN
and ALAN HIX,
Defendants.
This cause coming on to be heard before the undersigned Judge presiding at the March 24, 2014,
Civil Session of the Iredell County Superior Court
upon a Motion of Defendants Larry Holleman and
Alan Hix to Dismiss the Complaint, said movants being represented by Attorney Jeffery B. Foster, and
Plaintiffs Kim Lippard and Barry Lippard appearing
pro se’.
The Court, after a comprehensive review of the
court file, the submissions of the parties, and after
considering the arguments presented on behalf of the
respective parties, finds that the Motion to Dismiss

119a
should be denied. The Court announced the same in
open court on March 24, 2014.
IT IS THEREFORE ORDERED that the Defendants’ Motion to Dismiss is DENIED.
Entered and signed this 25 day of May, 2014.
/s/ Anna Mills Wagoner
Anna Mills Wagoner
Superior Court Judge Presiding

120a
______________________________
APPENDIX F
________________________
Kim and Barry LIPPARD
v.
Larry HOLLEMAN and Alan Hix
No. 180A17-2
Supreme Court of North Carolina.
September 23, 2020
From Iredell (13CVS2701); From N.C. Court of
Appeals (16-886, 18-873); From Iredell (13CVS2701)
Twenty-Second-A District
E. Bedford Cannon, Attorney at Law, For
Holleman, Larry, et al.
Lisa S. Costner, Attorney at Law, Winston Salem,
For Lippard, Kim, et al.
ORDER
Upon consideration of the notice of appeal in
which there is a dissent from the North Carolina
Court of Appeals, filed by the Plaintiffs on the 23rd of
June 2020 in this matter pursuant to G.S. 7A-30, and
the motion to dismiss the appeal filed by the
Defendants, the following order was entered and is
hereby certified to the North Carolina Court of
Appeals: the motion to dismiss the appeal is

121a
“Allowed by order of the Court in
conference, this the 23rd of September
2020.”
Upon consideration of the notice of appeal from
the North Carolina Court of Appeals, filed by the
Plaintiffs on the 23rd of June 2020 in this matter
pursuant to G.S. 7A-30, and the motion to dismiss the
appeal for lack of substantial constitutional question
filed by the Defendants, the following order was
entered and is hereby certified to the North Carolina
Court of Appeals: the motion to dismiss the appeal is
“Allowed by order of the Court in
conference, this the 23rd of September
2020.”
Upon consideration of the petition for
discretionary review, filed by Plaintiffs on the 23rd of
June 2020 in this matter pursuant to G.S. 7A-31 and
the Appellate Rule 16(b) as to issues in addition to
those presented as the basis for the dissenting opinion
in the Court of Appeals, the following order was
entered and is hereby certified to the North Carolina
Court of Appeals: the petition for discretionary review
as to additional issues is
“Denied by order of the Court in
conference, this the 23rd of September
2020.”

